<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                          MONDAY, MAY 19, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                 Chicago, Illinois.
    The subcommittee met at 9:28 a.m., in the Phoenix Military 
Academy, 145 South Campbell Avenue, Chicago, Illinois, Hon. 
Richard J. Durbin (chairman) presiding.
    Present: Senator Durbin.

   Immigrant Enlistment: A Force Multiplier for the U.S. Armed Forces

STATEMENT OF HON. LUIS V. GUTIEERREZ, UNITED STATES 
            HOUSE OF REPRESENTATIVES


             opening statement of senator richard j. durbin


    Senator Durbin. Welcome. This hearing of the United States 
Senate Subcommittee on Defense Appropriations will come to 
order.
    Today's hearing is entitled, ``Immigrant Enlistment: A 
Force Multiplier for the U.S. Armed Forces.'' It will examine 
the benefits of immigrants enlisting in the military. Before 
going any further, I would like to ask everyone, please to 
stand and join me in the Pledge of Allegiance.
    I pledge allegiance to the Flag of the United States of 
America, and to the Republic for which it stands, one Nation 
under God, indivisible, with liberty and justice for all.
    Thank you. My name is Dick Durbin. I am a United States 
Senator from Illinois and chairman of the Senate Subcommittee 
on Defense Appropriations. Thank you to those who are here in 
person and those who are following the hearing on Facebook and 
Twitter using #DREAMtoServe.
    For those who are attending their first congressional 
hearing, I will explain how we are going to proceed. I will 
deliver a brief opening statement, then we will hear statements 
from witnesses, and then I will ask some questions.
    I want to note that the rules of the Senate prohibit 
outbursts or demonstrations of any kind in a public hearing, 
and I will enforce the rules. If there are disruptions, those 
who are responsible will be held responsible. If they continue, 
I will ask them to be removed.
    Lastly, before we begin, I want to thank the Chicago public 
schools and the Phoenix Military Academy for hosting us and 
allowing us to be here today for this hearing. I especially 
want to thank retired Colonel Kevin Kelley, Director of 
Military Instruction for Chicago Public Schools; Phoenix's 
commandant, retired Lieutenant Colonel Victor Harris; Phoenix's 
principal, Ferdinand Wipachit, and Jer Rodriquez and Devin 
Sizer from Chicago Public Schools. I also want to thank the 
cadets of the Phoenix Military Academy who are in attendance.
    America is a Nation of immigrants. Since the beginning of 
our republic, immigrants have come to our shores from around 
the world leaving behind everything they knew to build a life 
for themselves and their children. And throughout our history, 
immigrants have proudly served in the United States Armed 
Forces fighting and even dying alongside native-born Americans 
to defend their adopted country. For example, one of the first 
servicemen killed in combat in Iraq was Lance Corporal Josee 
Gutieerrez, who came to the United States illegally from 
Guatemala.
    Today, our immigration system is broken. It does not 
reflect our heritage as a Nation of immigrants. There are 
millions of undocumented immigrants in our country who want to 
be part of America. But under current law, there is no way for 
them to get in line and legalize their immigration status. 
Regardless of their qualifications, they are unable to 
participate in many sectors of America, including the military.
    It has been 13 years now since I first introduced the DREAM 
(Development, Relief, and Education for Alien Minors) Act. This 
legislation would allow immigrant students who came to the 
United States as children to earn their citizenship by 
attending college or serving in the military. The young 
immigrants who would be eligible for the DREAM Act call 
themselves DREAMers. We have not been able to pass the DREAM 
Act yet, but thanks to President Obama, DREAMers can receive 
temporary legal status under the Deferred Action for Childhood 
Arrivals program, also know as DACA.
    DREAMers were brought to the United States as children. 
They grew up in this country. They have overcome great 
obstacles. They are our future doctors, engineers, teachers, 
soldiers, sailors, airmen, and marines who will make America 
stronger.
    Over the years, I have met many DREAMers who want nothing 
more than to give back to the country they love by serving in 
the Armed Forces and they have the talent, the heart, and 
determination to be great servicemembers. We are going to meet 
some of them today.
    Sadly, there have always been voices of hate who have 
spread fear about immigrants. Today is no different. One 
Congressman from Iowa was asked recently about DREAMers who 
want to serve in the United States military. This is what he 
said, ``As soon as they raise their hand and say, `I am 
unlawfully present in the United States,' we are not going to 
take your oath into the military, but we are going to take your 
deposition, and we have a bus for you to Tijuana.'' That is 
what he said.
    Unfortunately, this is not the first time we have heard 
similar hateful comments from this Congressman. I call on every 
Member of Congress, both parties, to reject this hateful, 
divisive rhetoric. There is no place for this kind of language 
in any constructive debate about immigration.
    Previous generations of Americans also faced racism and 
exclusion, but their military service played a crucial role in 
overcoming discrimination. During World War II, many of us have 
seen the movie where African Americans had to prove their 
patriotism and love of America, the Tuskegee Airmen, African 
Americans who served in what was then the Army Air Corps, the 
Camp Montford Point Marines, who went through basic training 
for the Marines as African Americans in primitive circumstances 
proving their love of this country.
    In that same war, Japanese-Americans who were highly 
suspect because of the invasion and destruction at Pearl 
Harbor, formed their own unit, the 442nd was one of them, which 
ended up being the most decorated military unit in the war. One 
of the members of that unit was Dan Inouye, the late Senator 
from Hawaii, who was ultimately awarded with the Congressional 
Medal of Honor for the heroism and bravery that he demonstrated 
as part of that Japanese-American effort to prove that they 
were loyal to America. During World War II, facing segregation 
and divisions within America, it was the American military 
which opened the door of opportunity for so many groups.
    In 2010, I brought the DREAM Act vote to the Senate. We won 
a majority of votes, but not the 60 we needed to defeat our 
filibuster. Senator Inouye reacted to our defeat and said, ``By 
allowing the DREAM Act to sit idle, we extinguish hope for a 
lot of people and deny too many the opportunity I was given.''
    I will acknowledge as well that my friend, Congressman 
Gutieerrez is here today with Congressman Foster, successfully 
guided the DREAM Act through the U.S. House of Representatives 
and I congratulate you for that effort.
    But last year, we passed the Comprehensive Immigration bill 
in the Senate by a vote of 68-32. There were eight of us, four 
Democrats and four Republican Senators who sat down and worked 
for months to write this bill. And when it was over, we 
constructed a comprehensive immigration reform bill. It is now 
pending before the U.S. House of Representatives and has been 
for almost a year.
    Today, again, I call on the Republican leadership of the 
House to bring the Senate immigration reform bill to the floor 
of the House. If Speaker Boehner gives us a vote, I am 
confident immigration reform will pass with a strong bipartisan 
majority, and the President will sign it into law. If the House 
Republicans refuse to act, then the administration can use the 
authority it has under current law to fix some of the problems 
with our broken immigration system.
    For example, the Defense Department can authorize the 
enlistment of noncitizens when it is vital to the national 
interest. This determination is entirely in the discretion of 
the Defense Department. It is clear that enlisting DREAMers is 
vital to the national interest. It would give the Armed Forces 
more diversity and inclusivity, and it would allow the Armed 
Forces to access well-qualified, educated, homegrown talent, 
many of whom are in this room today.
    DREAMers who have received DACA have been thoroughly vetted 
by the Department of Homeland Security. They are linguistically 
and culturally diverse, well-educated and integrated into 
American society. As we will see today, many DACA recipients 
have shown a great aptitude for military service through 
service in the Junior Reserve Officers Training Corps. And as 
Secretary of Defense Robert Gates said in 2010, authorizing the 
enlistment of DREAMers will result in improved recruitment 
results and attendant gains in unit manning and military 
performance.
    While the Armed Forces are reducing in size, the services 
still need to enlist tens of thousands of well-qualified 
recruits. Many fewer Americans are meeting enlistment standards 
and we have to make sure that as the Department of Defense has 
told us that we have good people enlisting in our military. And 
here is a quote from a Department of Defense official recently, 
``Today nearly 75 percent of our youth are not qualified for 
military service with medical conditions and weight accounting 
for most of the disqualifications. Compounding eligibility 
concerns is the lack of youth interested in military service.''


                           prepared statement


    The question is this: Will America be a stronger country if 
we deport our DREAMers to countries they barely remember or if 
we allow them to contribute more fully to the country whose 
flag they pledged allegiance to every day they have been in 
school? The answer is clear. I am confident that DREAMers will 
soon have the chance to serve honorably in the Armed Forces and 
on that day, America will be stronger and better.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
                              introduction
    America is a Nation of immigrants. Since the beginning of our 
republic, immigrants have come to our shores from around the world, 
leaving behind everything they know to build a new and better life for 
their children. And throughout our history, immigrants have proudly 
served in the United States Armed Forces, fighting--and dying--
alongside native-born Americans in defense of their adopted country. 
For example, one of the first servicemen killed in combat in Iraq was 
Lance Cpl. Jose Gutierrez, who came to the United States illegally from 
Guatemala.
    But today our immigration system is broken and does not reflect our 
heritage as a Nation of immigrants. There are millions of undocumented 
immigrants in our country who yearn to be Americans. But under current 
law there is no way for them to get in line and legalize their 
immigration status. And, regardless of their qualifications, they are 
unable to participate in many sectors of our society, including the 
military.
                             the dream act
    Thirteen years ago, I first introduced the Dream Act. This 
legislation would allow immigrant students who came to the United 
States as children to earn their citizenship by attending college or 
serving in the military. The young immigrants who would be eligible for 
the DREAM Act call themselves Dreamers. We haven't been able to pass 
the DREAM Act yet, but--thanks to President Obama--Dreamers can receive 
temporary legal status under the Deferred Action for Childhood Arrivals 
program, also known as DACA.
    Dreamers were brought to the United States as children. They grew 
up in this country and have overcome great obstacles to succeed. 
Dreamers are the future doctors, engineers, teachers--and soldiers, 
sailors, airmen, and Marines--who will make America stronger. Over the 
years, I've met many Dreamers who want nothing more than to give back 
to the country they love by serving in the Armed Forces. And they have 
the talent, the heart, and the determination to be great 
servicemembers.
    We are going to meet some of these Dreamers later today.
            discrimination against immigrants and minorities
    Sadly, there have always been voices of hate who have spread fear 
about immigrants in our country. Today is no different. A Republican 
Congressman from Iowa was asked recently about Dreamers who want to 
serve in the military. He responded:
      ``As soon as they raise their hand and say, `I'm unlawfully 
        present in the United States,' we're not going take your oath 
        into the military, but we're going to take your deposition and 
        we have a bus for you to Tijuana.''
    Unfortunately, this is isn't the first time we've heard xenophobic 
comments from this Congressman. I call on every member of Congress--
Republican and Democrat--to reject this divisive rhetoric. There is no 
place for this kind of nativism in the debate about immigration.
    Previous generations of Americans also faced racism and exclusion. 
But their military service played a crucial role in overcoming 
discrimination. During World War II, the military was still racially 
segregated and Jim Crow laws imposed a reign of terror on African 
Americans living in the South. But African-American pilots--known as 
the Tuskegee Airmen--served heroically in World War II--and in the 
fight for civil rights.
    After the bombing of Pearl Harbor, tens of thousands of innocent 
Japanese-Americans were held in internment camps. Despite being labeled 
``enemy aliens,'' many young Japanese Americans volunteered to fight in 
World War II. The 442nd Regimental Combat team, an all Japanese-
American unit, suffered the most casualties in the European campaign 
and was also the most decorated unit of its size in the history of the 
United States military.
    My predecessor as chairman of this subcommittee was Senator Daniel 
Inouye. Senator Inouye, who passed away in 2012, was as an American 
hero. He served in the 442nd and received the Medal of Honor for his 
heroism in a battle against the Nazis in which he lost his arm.
    In 2010, I brought the DREAM Act to a vote in the Senate. We won a 
majority of votes, but not the 60 votes that we needed to defeat a 
Republican filibuster. I will never forget Senator Inouye's reaction. 
He said, ``By allowing the DREAM Act to sit idle, we extinguish hope 
for a lot of people and deny too many the opportunity I was given.''
                    comprehensive immigration reform
    Last year, the Senate passed a comprehensive immigration reform 
bill on a bipartisan 68-32 vote. I was proud to be part of the ``Gang 
of 8'' Democrats and Republicans who authored this bill. Our bill would 
strengthen border security, reform our legal immigration system, and 
create a path to citizenship for undocumented immigrants.
    So far, the only immigration legislation the Republicans in the 
House of Representatives have passed is an amendment to deport 
Dreamers. Just last Friday, the House Republican Majority Leader 
announced that he will block a vote on an amendment that a fellow 
Republican wanted to offer to simply allow Dreamers to enlist in the 
Armed Forces.
    Today, I again call on the Republican leadership of the House of 
Representatives to bring the Senate immigration reform bill to the 
floor of the House. If Speaker Boehner gives us a vote, I'm confident 
immigration reform will pass with a strong bipartisan majority and the 
President will sign it into law.
                           enlisting dreamers
    If the House Republicans refuse to act, then the Administration can 
use the authority it has under current law to fix some of the problems 
with our broken immigration system.
    For example, the Defense Department can authorize the enlistment of 
non-citizens when it is ``vital to the national interest.'' This 
determination is entirely in the discretion of the Defense Department. 
It is clear that enlisting Dreamers is ``vital to the national 
interest'' because it would make the Armed Forces more diverse and 
inclusive, and it would allow the Armed Forces to access a well-
qualified, educated, homegrown talent pool.
    Dreamers who have received DACA have been thoroughly vetted by the 
Department of Homeland Security, are linguistically and culturally 
diverse, and are well-educated and integrated into American society. As 
we will see today, many DACA recipients have shown a great aptitude for 
military service through service in Junior Reserve Officers' Training 
Corps (JROTC). In 2010, Secretary of Defense Robert Gates said that 
authorizing the enlistment of Dreamers ``will result in improved 
recruitment results and attendant gains in unit manning and military 
performance.''
    While the Armed Forces are reducing in size, the services still 
need to enlist tens of thousands of well-qualified recruits every year. 
And many fewer Americans meet enlistment standards and are interested 
in enlisting. As a Defense Department official recently testified: 
``Today nearly 75 percent of our youth are not qualified for military 
service with medical conditions and weight accounting for most of the 
disqualifications. Compounding eligibility concerns is the lack of 
youth interested in military service.''
    The question is this: Will America be a stronger country if we 
deport our Dreamers to countries they barely remember or if we allow 
them to contribute more fully to the country they love? The answer is 
clear. I am confident that Dreamers will soon have the chance to serve 
honorably in the Armed Forces. On that day America will be stronger and 
better country.

    Senator Durbin. Now, I would like to turn to our first 
witnesses. We are honored today to be joined by two of my 
colleagues from the House. Each witness is going to have 5 
minutes for an opening statement. Their written statements will 
be made part of the record. They know this well because they 
have sat on this side of the table.
    The first witness today is Congressman Luis Gutieerrez, who 
has represented the 4th Congressional District since 1993. He 
is a national leader on the issue of immigration reform. He 
chairs the Congressional Hispanic Caucuses' Immigration 
Taskforce. He led successful efforts to pass the DREAM Act in 
the House in 2010.
    Congressman Gutieerrez, we are honored to have you as a 
witness, and the floor is yours.

         SUMMARY STATEMENT OF REPRESENTATIVE LUIS V. GUTIEERREZ

    Representative Gutieerrez. Thank you. Thank you so much, 
Senator Durbin.
    First of all, I would like to thank all of the wonderful 
young men here and women at the Phoenix Military Academy. Thank 
you so much for hosting this activity. I am very, very proud to 
be here this year.
    We know we are doing good, Senator, because the Alderman 
showed up, Walter Burnett. Thank you so much for joining us. I 
know you are here with us.
    And we have a right in this country to let our feelings be 
known and to express them freely and openly, but I have come 
here today to say thank you to all of you for taking the steps. 
With so much violence, and gangs, and drugs, and so many things 
that take our youth down the wrong path, I want to say thank 
you for making your commitment to the right path to excellence, 
both educationally and morally and spiritually that you do here 
each and every day at the Phoenix Military Academy. I am proud 
to be here today with you and thank you, Senator, for hosting 
this wonderful activity.
    I want to say, first of all to everybody here that I was 
excited about coming here because it was the Phoenix Military 
Academy that has come to visit me in Washington, DC, but also 
because Senator Dick Durbin was hosting this activity. I cannot 
think of a person that has done more in the Senate, in the 
congress of the United States to advance the cause of young, 
immigrant youth in this country than Senator Durbin. And I 
think we should give him a round of applause as he led, 
successfully, the passage of Comprehensive Immigration Reform 
in the U.S. Senate.
    And I am here to tell him, we are going to roll up our 
sleeves in the coming weeks. We are going to keep our 
commitment. We are going to keep our dedication. We are going 
to keep our focus, Senator Durbin, so we can have a companion 
bill in the House of Representatives.
    Today, the votes exist for the DREAM Act, for Comprehensive 
Immigration Reform in the House of Representatives. They exist. 
They exist because the argument has been won. And I want to say 
that it is not good enough to pass the DREAM Act in the House. 
It is not good enough to pass Comprehensive Immigration Reform 
in the Senate. We will not rest until we pass Comprehensive 
Immigration Reform and Barack Obama, our President, signs that 
into law so that you can all be free to live in this country, 
and to enjoy the fruits of your hard work and labor in this 
country.
    I want to say that we have a letter that we sent around to 
the Secretary of the Army, Secretary of the Navy, Secretary of 
the Air Force, and it is a bipartisan letter, Senator Durbin. I 
would like to put it officially into the record in which we 
note that the Navy, and the Army, and the Marine Corps will not 
let you even join if you have an undocumented dependent.
    That means if you are an American citizen and your wife is 
undocumented, if your children are undocumented, you cannot 
enlist in the armed forces. I am happy to see that we are going 
to have some testimony to hopefully clarify that for us later 
on.
    I think the Armed Forces of the United States should take 
action to include all American citizens regardless of the 
immigration status of their husbands and spouses.
    And let me just say, I want to congratulate the 
administration for taking the kind of lead that Senator Durbin 
asked them to take, and that was to use their executive 
authority.
    Today, we know that members of the military whose wives are 
undocumented can simply be paroled in place, and thereby given 
permission, and allowed a legal status in the United States to 
go to a green card holder.
    I want to thank President Barack Obama and this 
administration for allowing that because too many times we 
read, and we know here, everybody remembers Specialist Nunez 
who, when he took his wife back to Mexico, although he had 
orders for deployment, to come back, his wife was not allowed 
to return to the United States. Well, guess what? She is a 
green card holder today. Paroled in place is the way to go.
    The administration has already made that regulation in 
order and I think that if we have that, that is exactly what 
the military should respect that that is what we are doing 
right now.
    Now, in terms of this, I am hopeful today that this hearing 
is going to enlighten us, Senator Durbin, as we know that you 
have someone from the military coming to speak at a later 
panel, and that she will be able to enlighten us even more in 
terms of what it is the response of the taskforce, so that 
American citizens are not stopped.
    I would also like, Senator Durbin, to put in, ``Retired 
Military Leader Said Kids Will Be Too Fat To Fight,'' and this 
is from CNN-NBC. I would like this in the record which shows 
the difficulty that we have in terms of recruitment of young 
men and women because of educational, because of physical 
condition.
    We have young men and women that are immigrant that are in 
this country that are smart and physically fit. And you know 
what the most important thing is? Committed to the defense of 
our country and our Nation; we should allow them to join the 
military, especially at this time of need. And I would like to 
be put in order, too, to put it in the record.
    Lastly, where are we at today? Sadly, Congressman Coffman 
and Congressman Denham, both Republicans, one from California, 
the other from Colorado, have bills to allow young DREAMers to 
enlist and thereby get their green card. But is it not sad that 
the majority leader, Congressman Cantor, last week said he will 
not allow a vote--a vote--on whether or not the DREAMers can 
enlist in the military; will not allow a vote.
    Well, let me just say this: I remember a time when we could 
not pass Comprehensive Immigration Reform even if they allowed 
a vote. But that does not exist today. I want to say there are 
dozens, because I want the young men and women here to 
understand this. This is a bipartisan problem and has a 
bipartisan solution. I do not want them to think that this is 
all about Democrats and Republicans necessarily.
    No, there are dozens of Republicans who want to vote for 
Comprehensive Immigration Reform in the House of 
Representatives. They want to respect the will of the people 
and they see, in the young men and women here, an opportunity 
for America to grow and to foster democracy. They want to get 
that done and there are dozens, hundreds of Democrats like 
Congressman Foster who came back to the U.S. House of 
Representatives to make sure that we pass Comprehensive 
Immigration Reform, and was there to successfully vote for the 
DREAM Act and get it passed. And I want to thank Congressman 
Foster for that moment of courage and insightfulness back 3 or 
4 years ago when we got it passed in the House of 
Representatives.
    So, Senator, in conclusion, look. We have the votes. The 
real question here is now whether or not in the House of 
Representatives even though we know there are close to 250 
votes out of the 435, and we only need 218. And we do not need 
one person's arm twisted. We do not need to twist a single arm. 
We only want those who willingly, happily want to vote for 
comprehensive immigration. If they just allow a vote any day of 
the week, any hour of the day, allow a vote, give us an hour, 
you know what is going to happen? You will see that your good 
work, Senator, and those of the senators who are bipartisan in 
the senate, when you pass Comprehensive Immigration Reform last 
summer, we will get you a companion bill out of the House.

                           PREPARED STATEMENT

    We will figure out the differences and we will get a bill 
on the senate so that all the young men and women, because I 
know that the young men and women here, you know undocumented 
youth that come to school with you each and every day. I know 
how you treat them. You treat them as your brothers and your 
sisters, and I only hope that one day, the Federal Government 
will show the same kind of leadership that the young men and 
women here at Phoenix Military Academy have shown to their 
immigrant youth, that fight alongside of you, work alongside of 
you, get trained alongside, get educated alongside of you here 
every day. And that is to treat them with respect and to allow 
them to incorporate themselves totally into our society.
    Thank you, Senator Durbin.
    [The statement follows:]
          Prepared Statement of Congressman Luis V. Gutieerrez
    Chairman Durbin, Ranking Member Cochran, thank you for the 
opportunity to testify on this extremely important issue. I commend the 
young cadets who are present today for their discipline and 
accomplishments.
    We are here to discuss the hopes and dreams of young talented men 
and women who wish to serve our great country but are denied the 
opportunity because of immigration issues.
    It is my firm hope that the Republican-led House of Representatives 
will follow the lead of the Senate and the Leadership of Senator Durbin 
and President Obama and pass serious immigration reform this year that 
will resolve many if not all of these issues. But until that happens, 
our society must work around the fact that our immigration laws are 
thirty years out-of-date and the military is no exception.
    Young undocumented immigrants or ``Dreamers,'' who are American in 
every way except for a piece of paper, are not able to fully contribute 
to our Nation because they are not allowed to enlist in our Armed 
Forces. Under current law, only U.S. citizens, green card holders and 
persons ``vital to the national interest'' can enlist in the military.
    In June 2012, the Administration announced Deferred Action for 
Childhood Arrivals, known as DACA, to protect young immigrants from 
deportation and grant them work permits.
    This announcement was widely celebrated across our country. At one 
of Chicago's top tourist destinations, Navy Pier, 15,000 Dreamers and 
their families stood in line to sign up for DACA the first day the 
program opened. To date, more than 600,000 immigrants raised and 
educated in the U.S. have signed up.
    The popularity of the program led to sweeping Democratic victories 
at every level in the 2012 elections. It's a growing boon to our 
economy because it allows DACA recipients to fully contribute their 
talents to our workforce. By signing up more than half a million well-
educated individuals who passed a rigorous background check and 
demonstrated good moral character, there are fewer undocumented 
immigrants living in the shadows, a fact that makes the job of 
protecting our homeland and neighborhoods much easier for law 
enforcement and immigration agents.
    As more young immigrants sign up for DACA, those already in the 
program will begin to renew their status this summer. Many of these 
DACA recipients are part of the Chicago Public Schools Military 
Academies. In fact, Chicago Public Schools run the largest JROTC 
program in the nation, with more than 10,000 students enrolled. 
Students in these military academies graduate at the top of their 
class, have above average ACT scores, and have diverse backgrounds.\1\
---------------------------------------------------------------------------
    \1\ http://www.chicagojrotc.com/.
---------------------------------------------------------------------------
    These programs instill in students the values of service, 
leadership, and personal responsibility. Many of these graduates want 
to pursue a career in the Armed Forces, but the ones who have applied 
for and received DACA are senselessly turned away.
    Allowing these young patriots to enlist is vital to our national 
interest because it enhances the military's cultural expertise and 
diversifies the pool of well-educated applicants for recruitment across 
the board.
    I am very proud of the State of Illinois and the City of Chicago 
for being national leaders when it comes to integrating and developing 
the full potential of all immigrants. We are committed to welcoming 
immigrants who want to work hard and contribute to our city regardless 
of their origin or immigration status.
    With State- and city-led initiatives like in-State tuition and 
scholarships for DACA recipients, more students would qualify to serve 
in the officer corps, helping to correct the underrepresentation of 
minorities in leadership positions in the Armed Forces--but only if we 
remove barriers to their service. A 2011 Military Leadership Diversity 
Commission report found that overall military officers ``are less 
demographically diverse than both the enlisted troops they lead and the 
broader population they serve.'' \2\ If we align policies in a smart 
way at the Federal, State and local level, we can do something to 
correct this deficiency.
---------------------------------------------------------------------------
    \2\ ``From Representation to Inclusion: Diversity Leadership for 
the 21st-Century Military,'' Military Leadership Diversity Commission, 
March 15, 2011, http://diversity.defense.gov/Portals/51/Documents/
Special%20Feature/MLDC_Final_Report.pdf.
---------------------------------------------------------------------------
    But DACA recipients are not the only ones who are turned away by 
the Armed Forces. Many U.S. citizens are being denied the opportunity 
to enlist. I am deeply troubled by the current Navy and Marine Corps 
regulation that prohibits U.S. citizens from enlisting in the military 
if they have an undocumented spouse or child. This regulation came to 
my attention last year when I read an article that said Marine Corps 
recruiters counseled a recruit to divorce her spouse in order to 
enlist.\3\
---------------------------------------------------------------------------
    \3\ ``Military's Immigration Battle; Pentagon Revisits Policy 
Barring Those With Spouses, Children in U.S. Illegally,'' Miriam 
Jordan, Wall Street Journal, December 9, 2013, 
http://online.wsj.com/news/articles/
SB10001424052702303330204579248584130068744.
---------------------------------------------------------------------------
    This and other reports prompted Congressman Mike Coffman of 
Colorado and me to lead a bipartisan letter from 33 Members of Congress 
to the Service Secretaries expressing our concern and requesting 
clarification on this policy.\4\
---------------------------------------------------------------------------
    \4\ Letter to the Service Secretaries from Members of Congress, 
sent on November 21, 2013, http://1.usa.gov/1jINLmy.
---------------------------------------------------------------------------
    The Office of the Under Secretary of Defense for Personnel and 
Readiness initiated a policy review on this matter with all the 
Military Services. There is a working group examining both the DACA 
enlistment issue and the Navy regulation barring U.S. citizens from 
enlistment. I hope these issues are promptly resolved by the Department 
of Defense (DOD) working group and expect a report on their findings 
soon.
    Our country should not turn away U.S. citizens because of who they 
love. And a soldier should not have to worry about his or her spouse 
being deported while they are defending our freedom.
    Army Specialist Hector Nunez is someone who personifies how a 
flawed immigration policy negatively impacts our military.\5\
---------------------------------------------------------------------------
    \5\ ``A family once divided reunited for Christmas; Soldier's wife 
is granted humanitarian visa,'' Serena Maria Daniels, Chicago Tribune, 
December 26, 2010, http://articles.chicagotribune.com/2010-12-26/news/
ct-met-xmas-visa-20101226_1_visa-dream-act-christmas.
---------------------------------------------------------------------------
    Specialist Nunez is a combat engineer in the Illinois Army National 
Guard who is responsible for clearing obstructions, including IEDs, for 
military convoys. His wife Rosa was brought to the U.S. from Mexico 
when she was 6 years old and grew up in Illinois. Hector and Rosa met 
and fell in love. They had a son who was born with a brain condition 
that required Rosa's constant care. They sought legal advice to resolve 
Rosa's immigration status but were badly misled. Rosa returned to 
Mexico for what she thought would be a brief period of time to pick up 
the visa she was granted. Hector had just received military orders to 
deploy to Afghanistan for a second tour when he learned that 
immigration rules barred Rosa and his 1 year old son from returning to 
the U.S. for 10 years. For a decade, they would have to live in Ciudad 
Juarez--perhaps the only place more dangerous than Afghanistan, a place 
where we issue ``combat pay'' for all U.S. personnel working in our 
consulate there.
    Specialist Nunez asked me for help and I worked with the family and 
DHS to secure a humanitarian visa for Hector's wife. She and Hector's 
son were able to return to the United States safely and Specialist 
Nunez could redeploy without worrying about his family being in harm's 
way.
    This story is unimaginable but true. That's why I applauded the 
November 15, 2013, U.S. Citizenship and Immigration Services (USCIS) 
memo that permits immediate family members of those who serve or served 
our country to apply for parole in place.\6\ This feature of existing 
immigration law that President Obama extended to military families 
resolves many of their immigration status issues and allows many of 
them to apply for permanent legal residence. Policies like these will 
prevent more tragedies like Hector's. They also ensure that military 
preparedness is not adversely affected by active duty servicemembers 
worrying about their loved ones getting deported.
---------------------------------------------------------------------------
    \6\ http://www.uscis.gov/sites/default/files/USCIS/Laws/Memoranda/
2013/2013-1115_Parole_
in_Place_Memo_.pdf.
---------------------------------------------------------------------------
    The impact of our current immigration mess on issues of military 
recruitment is just one example of why immigration reform is 
desperately needed.
    The fact that we have an estimated 11 million or more people living 
and working here underground is a serious national problem that must be 
resolved. We have as a society rightly concluded that driving out 11 
million people and their families is bad policy. But leaving the status 
quo is no solution, either.
    In the meantime, every institution in America, including our 
military, must work around the inability of our Federal Government and 
the U.S. House of Representatives to fix our immigration system.
    DACA is an important first step in implementing modern immigration 
policies that reflect our values and strengthen our Nation. Next we 
must fully incorporate DACA recipients and their families and the 
millions of immigrants who live among us into our society.
    Thank you Senator Durbin for your leadership on this issue and for 
the opportunity to testify.

    Senator Durbin. Our next witness is another Illinois 
colleague, Congressman Bill Foster representing the 11th 
Congressional District, member of the committee on financial 
services. In his background, you should know, Congressman 
Foster has a Ph.D. in physics. He is one of only three research 
physicists ever elected to congress.
    A strong supporter of comprehensive immigration reform, 
Congressman Foster, we are honored that you are going to join 
us today, and the floor is yours.
STATEMENT OF HON. BILL FOSTER, UNITED STATES HOUSE OF 
            REPRESENTATIVES
    Representative Foster. Good morning, and I would like to 
thank you, Senator Durbin, for organizing this hearing, and for 
everything that you have done to support DREAMers and to fix 
our broken immigration system.
    I am honored to have the opportunity to testify today, and 
to join Senator Durbin in his efforts to authorize the 
enlistment of DACA recipients into the U.S. Armed Forces.
    For the last year and a half, I have had the honor of 
representing the 11th Congressional District, which includes 
Aurora, the second largest city in Illinois. And before that, I 
represented the 14th Congressional District, which also 
includes Aurora.
    And in that time, I have had the opportunity to meet many 
DREAMers, young men and women who were brought into this 
country as children and for many of them, the United States is 
the only home they have ever known. Their place of birth, a 
distant, foreign land they scarcely remember.
    One of my proudest votes in the historic 111th Congress was 
my vote in favor of the DREAM Act. And one of my most profound 
disappointments with the current House leadership of the 
current congress is its failure to bring up the DREAM Act in 
any form. In fact last year, House Republicans voted 
overwhelmingly to defund DACA, which is a lesson that should 
never be forgotten.
    I often see DREAMers when so many of these young men and 
women have a deep love and commitment to this country. And I 
often see them in the halls of congress, pleading simply for 
the opportunity to become full-fledged citizens
    And despite the fact they have been designated as a second 
class of citizens, left in a state of limbo with no clear path 
to citizenship, I have no doubt that many of these young men 
and women would be the first in line for an opportunity to 
serve our county in the armed forces. But if they walk into a 
recruiting room today, they would be turned away, not because 
they are not smart enough, not because they are not strong 
enough, not because they do not love their country enough. They 
are turned away for one reason and for one reason alone, 
because of our broken immigration system. Unfortunately, this 
is just one of many symptoms of our broken immigration system 
which, for more than 20 years, has been left to rot by 
Congress.
    So I am very pleased today that we are holding this 
discussion at the Phoenix Military Academy. It is just one of 
the many institutions that is preparing students for service in 
our armed forces.
    I am also proud to represent another extraordinary 
institution which also does this, the East Aurora School 
District 131, which has the largest Naval Junior Reserved 
Officer Training Corps in the world at 950 students during the 
current school year.
    Last year, 85 percent of all the students in the district 
were Hispanic. One-third all District 131 high school students 
receive bilingual services. In addition to academics and 
physical fitness, these students are taught to give back to 
their community, performing approximately 10,000 hours of 
community service each year.
    The students graduating from this program are ideal 
candidates for the armed services. In fact, I recently had the 
honor of nominating Ruby Garcia, an East Aurora High School 
graduate, for an appointment to West Point. Ruby is the first 
female from East Aurora High School to be accepted at West 
Point. She will begin her training there this fall.
    But how many other students, just like Ruby, have been 
denied the chance to serve in our armed forces simply because 
of their legal status? In June 2012, President Obama issued a 
memo halting the deportations of undocumented youth under the 
Deferred Action for Childhood Arrivals program, also known as 
DACA. To qualify for a DACA exemption, applicants must undergo 
background checks and finish high school. DACA allows them to 
stay and work in our country, but it does not offer them a path 
to citizenship, and it does not allow them to enlist in the 
military.
    I believe that our national priorities fit-in to two 
general categories. First, things that we do to protect our 
strength as a Nation like maintaining a robust military or 
policies to support economic growth. And secondly, there are 
things that we do because of the kind of people we are, our 
dreams for the country, and the morals we have like providing 
care for our seniors, or early education for underprivileged 
children.
    But this policy of denying DREAMers the opportunity to 
serve fails on both counts. It is simply poor policy to turn 
away these young men and women while we struggle to find 
qualified Americans, able and willing to serve. It is morally 
reprehensible to deny these patriotic young men and women the 
opportunity to serve the country they love.
    DACA is an important program that has provided hope for 
thousands who are trying to build a life for themselves and for 
their families. But until we pass comprehensive immigration 
reform, hope and a safe haven is all that it offers. These 
DREAMers are currently in a state of limbo, able to work and go 
to school if they can afford it, but always living with the 
uncertainty and fear of what may come next. Until we pass 
comprehensive immigration reform, they have no path to 
citizenship and no idea whether their status will be upheld by 
the next occupant of the White House.
    Providing DREAMers the opportunity to serve in the military 
will not fix the core problems with our broken immigration 
system. Only congressional action to pass Comprehensive 
Immigration Reform can do that. But this is an important first 
step that can give a little more hope to these patriotic young 
men and women.
    So thank you, Senator Durbin, for organizing this hearing 
and for giving me an opportunity to testify. And thank you to 
everyone who has come here today to share your insight and to 
speak out on this important issue.
    Senator Durbin. Thank you, Congressman Foster. Appreciate 
your testimony.
    I want to thank Congressman Gutieerrez and Congressman 
Foster for coming here today. I know their schedules are very 
busy. You are welcome to stay, but if you have to leave, we 
certainly understand that. So thank you very much for coming 
here this morning.
    Our next witness is Jessica Wright. She has come here from 
Washington, DC. She is the Acting Under Secretary of Defense 
for Personnel and Readiness, and I invite her to come to the 
table as I read her introduction.
    Jessica Wright has served as the Acting Under Secretary of 
Defense for Personnel and Readiness in the Department of 
Defense since January 1, 2013. She is the senior policy advisor 
to the Secretary of Defense on recruitment, career development, 
pay and benefits. She oversees the overall state of military 
readiness.
    Prior to her current position, she served as Assistant 
Secretary of Defense for Reserve Affairs. Under Secretary 
Wright retired as a Major General in the Pennsylvania Army 
National Guard after 35 years of military service. You must 
have enlisted at a very early age. Her final assignment in the 
Guard was Adjutant General of Pennsylvania and Commander of the 
Pennsylvania National Guard.
    She has an extraordinary responsibility. I just want to 
make reference to the fact that her responsibility includes the 
recruitment, career development, pay and benefits for 1.4 
million active duty military personnel, 1.1 million Guard and 
Reserve, and 680,000 DOD civilians. And she is responsible for 
overseeing the overall state of military readiness.
    Under Secretary Wright, I know you just returned from 
overseas. I greatly appreciate you coming to Chicago today for 
this hearing. I thank you for meeting with me on several 
occasions to discuss enlisting DREAMers in the military and I 
look forward to continuing to work with you, Secretary Hagel, 
as well as President Obama on this issue.
    The floor is yours. Your written statement will be included 
in its entirety. Please proceed.
STATEMENT OF HON. JESSICA WRIGHT, ACTING UNDER 
            SECRETARY FOR PERSONNEL AND READINESS, 
            DEPARTMENT OF DEFENSE
    Ms. Wright. Senator Durbin, thank you so much for inviting 
me to discuss immigrant enlistment in the armed forces. And I 
really appreciate you championing this issue tirelessly 
throughout the last several years.
    It really is a great honor for me to be here at the Phoenix 
Military Academy, one of our many Junior Reserve Officer 
Training Corps programs in Chicago. And honestly, since the 
inception of JROTC in 1916, the Department has the largest 
youth development program in our secondary schools in our 
community. And here in Chicago, the Chicago Public School 
system has the largest ROTC presence, which is about 37 
traditional units and 10,000 students participating.
    I want to commend each and every student for being here. I 
truly just want to thank all of the ROTC cadets for being here, 
for taking the additional responsibility of learning leadership 
through our military, of learning dedication, of learning 
strong integrity and the values that we hold.
    And again, as you said, I enlisted as a private and I made 
it to Major General, and I would be honored if, at some time, 
they felt that they could invite me back to talk to one of the 
classes.
    As you know, our military depends on a strong, diverse 
society to sustain the all-volunteer force, and for more than 
13 years of a protracted conflict, the all-volunteer force has 
shown its resolve and continues to be the strongest and most 
respected military in the world.
    Our servicemembers and civilian employees are the reason 
for this success. Our service recruiting commands have 
sustained this all-volunteer force by assessing the best and 
the brightest from across America, and their diverse 
backgrounds and finding the solutions for many national 
security issues from across the globe.
    All the continued success of the volunteer force begins 
with recruiting and the viability of our force is assured 
because of the retention. Recruiting and retention has been 
easier in some years than others, and the support of Congress 
and you, sir, has clearly help to facilitate that success.
    While we are currently achieving our recruiting goals, 
there is no guarantee that we will continue to achieve those 
goals. The support initiatives that would expand the number of 
eligible youths to enlist in the military, the Department 
continues to be on the record and supports the development, 
relief, education for minor aliens at the DREAM Act; totally 
support it.
    The DREAM Act was largely incorporated in a bipartisan 
immigration reform bill that passed the senate last June, and 
we have been vocal about the fact that the Act will have a 
positive impact on our Armed Forces.
    The DREAM Act legislation, which you have tirelessly 
supported, would provide the opportunity for those individuals 
who came to the United States at 15 years of age or younger, 
and have lived here more than 5 years to earn a legal status 
and enlist in our great armed forces if otherwise qualified and 
earn the right to become citizens of this great country.
    Legislation like this would assist the military, and 
potentially, our recruiting efforts and increase the pool of 
eligible, young individuals that we can enlist. While the DREAM 
Act may create a larger pool of these enlistees, it may also 
further the diversity of our Department, our fleet, and our 
force.
    A few weeks ago, the Secretary of Defense, and leaders from 
across our Department, signed the Human Goals Charter. The 
Charter is the cornerstone document that affirms the 
Department's commitment to diversity and equality in our 
military. Diversity is much more than race, gender, religion. 
It is a variety of mixture of thought, ability, background, 
language, culture, and skill.
    The Armed Forces of the United States is a Nation of 
immigrants and have long distinguished them with a record of 
valor and sacrifice, the part of those who call the United 
States home, but are not yet citizens.
    The history of noncitizens serving in the armed forces has 
been significant. The Lodge Act of 1950 permitted foreign 
nationals to enlist between 1950 and 1959, and we officially 
began recruiting Filipino nationals into the U.S. Navy in the 
1940's when we signed the Military Base Agreement, allowing the 
U.S. military bases in the Philippines. A total of 35,000 
Filipinos enlisted in the Navy between 1952 and 1991.
    The DREAM Act would absolutely be similar and extend the 
opportunity to serve in the military for those youngsters 
brought to this country as children who are currently 
undocumented through absolutely no fault of their own.
    Each year, it is estimated that approximately 65,000 
undocumented students graduate from high school, and many of 
them are at the top of their class. However, they have 
difficulty affording college, cannot enlist in our military, 
legally work in the United States, or apply for citizenship, or 
pursue their dreams. These young men and women may be 
absolutely the quality of youth that the Department needs to 
enlist.
    Passage of the DREAM Act, or other authorities, may offer 
this very specific set of young adults the opportunity to serve 
our Nation, which they grew up in, the path to becoming a 
productive citizen and contributing members of society.
    As you know, June 2012, the Department of Homeland Security 
established the Deferred Action Childhood Arrival process, 
DACA. These youngsters were brought to this country by their 
parents, sometimes as infants, and they often have no idea that 
they were undocumented until they apply for a job, a driver's 
license, or a college scholarship. The Department understands 
the attributes of this young population that receives the 
deferred action through the Department of Homeland Security, 
the process known as DACA.
    To that end, our Department continues to examine the laws 
and policies to address eligible, noncitizens in the military. 
The Department is working with Homeland Security in regarding 
the parole in place policy so lawful, permanent residents, 
citizens with undocumented family members may enlist in the 
military and resolve the issues performing to their 
undocumented spouses. And this goes to the statement that 
Congressman Gutieerrez brought up, sir, that we are working 
with Homeland Security to get to this point where we can enlist 
those individuals.
    Today, more than 25,000 noncitizens in undocumented status 
serve in the military, Active and Reserve, and about 5,000 more 
enlist each year. Noncitizens have been, and continue to be, a 
successful member of our country's military. Those serve in 
patriotic, dedicated professionals. Noncitizen recruits 
continue to provide the services with a diverse course in terms 
of ethnic and race, language and culture.

                           PREPARED STATEMENT

    In conclusion, noncitizens have served and continue to 
serve honorably in our military. Throughout the past and 
current conflicts, those who are not yet citizens, but call 
America home have answered the call to defend the Nation. We 
look forward to the time when we will be able to grant more 
individuals the opportunity to serve this great Nation.
    I thank you for the opportunity to appear here, and I look 
forward to your questions.
    [The statement follows:]
             Prepared Statement of the Hon. Jessica Wright
    Senator Durbin, thank you for inviting me to join you here today to 
discuss our mutual desire to develop a path to military service for 
Deferred Action for Childhood Arrival (DACA) recipients, an initiative 
that you have long championed. It is also a great honor to be a part of 
this engagement here, at the Phoenix Military Academy, one of the many 
Junior Reserve Officer Training Corps (JROTC) programs in the city of 
Chicago. I value this opportunity to join you in demonstrating for this 
student body, many of whom have studied civics and leadership as a part 
of their involvement in JROTC.
    Since its inception in 1916, JROTC has been and remains the 
Department of Defense's (the Department's) largest youth development 
program in our secondary schools and communities across the Nation. 
Currently, JROTC has over 554,000 students enrolled in over 3,400 units 
across the country where students like those joining us here today gain 
valuable lessons in leadership, teamwork, and self-discipline. And, 
right here in Chicago, the Chicago Public School system has the largest 
JROTC presence in the Nation with 37 traditional units and over 10,000 
students participating. I commend each of you for being a part of such 
a great program and am confident you will gain valuable lessons that 
will impact the rest of your lives. While you benefit from JROTC, it is 
also important to realize that our society gains too. The societal 
benefits of JROTC are significant and long lasting as well.
    I would like to take this opportunity here at the Phoenix Academy 
to commend the JROTC instructors as well as the entire faculty and 
staff. The commitment that each of you have to providing a tremendous 
learning environment for these young people is outstanding. My sincere 
thanks to each of you for your service, and for your stalwart 
commitment to these students and our program.
    Our military depends on a strong and diverse society to sustain the 
All-Volunteer Force. For more than 13 years of protracted conflict, the 
All-Volunteer Force has shown its resolve and continues to be the 
strongest and most-respected military force in the world. Our people 
are THE reason for this success. Our Service Recruiting Commands have 
sustained the All-Volunteer Force by recruiting the best and brightest 
of America's youth from across our Nation. Their diverse backgrounds 
aid immeasurably in finding solutions to the many complex national 
security issues with which the Department is charged from around the 
globe. The continued success of our All-Volunteer Force begins with 
recruiting, and the viability of the force is assured with successful 
retention. Both recruiting and retention have been easier in some years 
than in others. The support of Congress has clearly helped facilitate 
our success. While we are currently achieving our recruiting goals, 
there are indications that the recruiting environment may become more 
challenging in the future as the economy continues to improve.
    To support initiatives that would expand the number of youth 
eligible to enlist in the military, the Department continues to be on 
record as supporting the ``Development, Relief, and Education for Alien 
Minors'' (DREAM) Act, which was largely incorporated in the bipartisan 
immigration reform bill that passed in the Senate last June, and has 
been vocal about the potential positive impact of this legislation on 
our Armed Forces.
    The DREAM Act, legislation which you have tirelessly supported, 
would provide an opportunity for those individuals who came to the 
United States at 15 years of age or younger and have lived here for at 
least 5 years to earn a legal status, to enlist in the United States 
Military, if otherwise qualified, and earn the right to become a U.S. 
citizen. Legislation like this would also help the military and our 
recruiting efforts by expanding the pool of youth eligible for 
enlistment.
    While the DREAM Act would create a larger pool of potential 
enlistees, it would also assist the Department in furthering our 
diversity goals. Just a few weeks ago, the Secretary of Defense and 
other top leaders across the Department signed the Human Goals Charter, 
a cornerstone document that affirms the Department's commitment to 
diversity and equality throughout the military. Diversity is more than 
race, gender, and religion. It is a variety or mixture of thought, 
ability, background, language, culture, and skill. Passage of the DREAM 
Act would expand our ability to become a more diverse force and afford 
a group of young people the opportunity to join the military and become 
part of a rich tradition of service.
    Our Armed Forces of this great Nation, a nation of immigrants, have 
a long and distinguished record of valor and sacrifice on the part of 
those who call the United States ``home,'' but are not yet citizens.
    The history of noncitizens serving in the U.S. Armed Forces has 
been significant over time. The Lodge Act of the 1950s, for example, 
permitted noncitizen Eastern Europeans to enlist between 1950 and 1959. 
We officially began recruiting Filipino nationals into the U.S. Navy in 
the late 1940s, when it signed the Military Bases Agreement of 1947, 
allowing U.S. military bases in the Philippines. In total, over 35,000 
Filipinos enlisted in the Navy through the program between 1952 and 
1991. The DREAM Act would similarly expand the opportunity to serve in 
the military to those young people brought to our country as children 
who are currently in an undocumented status through no fault of their 
own.
    Each year, it is estimated that approximately 65,000 undocumented 
students graduate from U.S. high schools and many are at the top of 
their class. However, they have difficulty affording college; cannot 
enlist in the military; legally work in the United States; apply for 
U.S. Citizenship; or otherwise pursue their dreams. These young men and 
women often mirror exactly the ``high quality'' youth the Department 
seeks for enlistment. They may be scholars, student leaders, and 
athletes. They are often ``Americans'' in every cultural sense of the 
word, having grown up in the United States and pledging allegiance to 
our flag. Passage of the DREAM Act would offer this very specific 
subset of young adults the opportunity to serve the nation in which 
they grew up, and a path to becoming productive citizens and 
contributing members of our society.
    As you know, in June 2012, the Department of Homeland Security 
(DHS) announced the establishment of the Deferred Action for Childhood 
Arrivals process. As then DHS Secretary Napolitano stated, ``Our 
nation's immigration laws must be enforced in a firm and sensible 
manner. But they are not designed to be blindly enforced without 
consideration given to the individual circumstances of each case. Nor 
are they designed to remove productive young people to countries where 
they may not have lived or even speak the language. Discretion, which 
is used in so many other areas, is especially justified here.'' 
Speaking from the Rose Garden that same day, President Obama remarked, 
``these are young people who study in our schools, they play in our 
neighborhoods, they're friends with our kids, they pledge allegiance to 
our flag. They are Americans in their heart, in their minds, in every 
single way but one: on paper. They were brought to this country by 
their parents--sometimes even as infants--and often have no idea that 
they're undocumented until they apply for a job or a driver's license, 
or a college scholarship.''
    The Department recognizes the positive attributes of the population 
of young people that has received deferred action through the 
Department of Homeland Security's DACA process. To that end, the 
Department continues to examine the laws and policies that address the 
eligibility of noncitizens to serve in the military in order to 
determine if and how our programs could be applied to DACA recipients. 
The Department also supports legislative proposals that would expand 
enlistment to include additional noncitizens.
    Additionally, the Department is working with DHS regarding its 
parole-in-place policy so that lawful permanent residents and citizens 
with undocumented family members may enlist in the military and resolve 
issues pertaining to their undocumented family members. I look forward 
to working with DHS on immigration issues important to enlistees and 
current Service members, as well as to veterans.
    Today, more than 25,000 noncitizens in documented status serve in 
the military (Active and Reserve) and about 5,000 more enlist each 
year. They serve worldwide in all of the Services and in a variety of 
jobs. They swear allegiance to the United States and represent our 
Nation both at home and abroad--even on the front lines of our current 
overseas contingency operations. Nearly 93,000 have been granted 
citizenship through military service since September 11, 2001, and over 
125 who entered military service since then have made the ultimate 
sacrifice, having given their lives for our country in a time of war.
    Noncitizens have been, and continue to be, a vital part of our 
country's military. Those who serve are patriotic, and data shows that 
over 80 percent complete their initial enlistment obligation. 
Noncitizen recruits continue to provide the Services with a richly 
diverse force in terms of race/ethnicity, language, and culture.
    In conclusion, noncitizens have served and continue to serve 
honorably in the military. Throughout past and current conflicts, those 
who are not yet citizens, but call the United States of America 
``home,'' have answered the call to defend their adopted Nation. I 
thank you for the opportunity to appear here with you today and look 
forward to your questions.

    Senator Durbin. Thank you, Madam Secretary, for returning 
here from Washington and giving your testimony.
    You have dedicated your life to the military. You 
understand what it means to all of us, for the men and women 
who are prepared to fight and even die, if necessary, to defend 
this great Nation. And I thank you for that commitment on your 
part and on behalf of all those that you represent here today.
    As a student of history, as we look back, the U.S. military 
has been an opportunity for America to start to get things 
right. Back in World War II, when this Nation was divided by 
race, even much worse than it is today, President Roosevelt 
decided to end racial discrimination in the recruitment of men 
and women into the military. And later, of course, President 
Truman absolutely eliminated segregation in our military.
    Each of those steps were taken long before our courts and 
Congress had reacted to the issue of discrimination. And so, in 
a way, the military has been a leader in America as we have 
evolved on issues like race.
    I mentioned the experience of former Senator, late Senator 
Dan Inouye. Japanese-Americans were suspect after World War II 
began with the attack on Pearl Harbor. Whose side were they 
going to be on? And it was Senator Inouye, as a young man and 
thousands like him, who stepped up and said, ``We may have our 
roots in Japan, but we are committed to the United States and 
we are prepared to fight for this country.''
    They proved it over and over again in the course of that 
war, the kind of heroism and valor that is extraordinary. And 
they put to rest any critics who said, ``We cannot trust 
Japanese-Americans because of Pearl Harbor.''
    So we are at another moment in America's history where we 
are dealing with the issue of immigration. And, of course, it 
involves many groups, largely Hispanic but not exclusively, who 
are asking for that same opportunity to break down the hatred 
that some harbor against them, and to prove their love of this 
country.
    One of the key tests in the Department of Defense is 
whether the recruitment of noncitizens is vital to the national 
interest. That is the phrase: ``Vital to the national 
interest.'' Congress did not define that very well; we left 
that to the Department. And I think this is part of your 
ongoing debate as to whether allowing DACA-eligible DREAMers to 
enlist would be vital to the national interest.
    I think, when you talk to us about exclusivity, part of 
inclusivity, as well as diversity, when we look at the talent 
in this room, these young men and women, many of whom make 
great sacrifices, incidentally, to attend these military 
academies and high schools. I have met some of them who take 
more than one bus ride in the morning. Is there anybody who 
takes more than one bus ride to get to school in the morning? 
Take a look at the hands here. The sacrifices they are willing 
to make to attend these schools.
    This kind of commitment of these young people, I think, 
would be a great asset to our military and vital to our 
national interest.
    Can you comment on that phrase, ``vital to the national 
interest,'' in the context of this hearing?
    Ms. Wright. Thank you, Senator.
    So as you know, we do have a program, and it was 
established. It is the Military Accessions Vital to the 
National Interest, the term we use is ``MAVNI.'' MAVNI was 
developed a while ago and has evolved slightly.
    Right now we, the Department, in policy have determined 
that vital to the national interest phrase are for very 
specific skills; the skills are medical and language. And as 
you know, the language does not include Spanish. It includes a 
multitude of other languages. The reason that it does not 
include Spanish is because we have a number of Spanish speakers 
within our military.
    But we think it is very important to take a look at the 
MAVNI program that was established a while ago, and see what 
that ``vital to national interest'' means. So the Department is 
not doing this in a vacuum because it is something that we need 
to be very inclusive. So we are talking to DHS. We are talking 
to the Department of Justice. We have a team that is an 
interagency team and it is also a team that is a DOD team.
    We are joined at the hip, to use a colloquialism, with the 
White House because, as you know, our President is very 
concerned and also very pro when it comes to reforming 
immigration. And so, it is very important to us that we are in 
concert to things that the White House thinks is very 
important, and we do too.
    So we are looking to move forward on what ``vital to the 
national interest'' means. Unfortunately, I cannot tell you 
what that means at this point in time. I would like to be able 
to give you a whole host of particular occupational 
specialties, but I cannot do this. We believe that we will have 
some sort of a more affirmative answer by the end of the summer 
2014.
    Senator Durbin. If I can ask you this question, each year, 
how many men and women are recruited into our armed forces in 
the United States?
    Ms. Wright. I do not know exactly what that is. I know 
about 200,000 leave our Armed Forces, so I would suspect about 
200,000 come in.
    And right now, you made a comment in your opening speech, 
and I think both Congressmen also referenced it, you are right. 
If we take a look at the population of the United States, if 3 
out of 10 individuals within the age limit to enlist are the 
ones that are eligible to enlist without any waiver, whether it 
is weight, or whether it is do they pass the academic tests, 
the ASVAB test, have they committed any sort of unlawful issue 
that would preclude them from admission.
    You are 100 percent right. So if you take 10 average 
American kids that are out there in any high school, 3 of them 
only meet the requirements of our great armed forces to enlist.
    Senator Durbin. Well, the question I wanted to ask was if 
it is about 200,000 and we will put the exact number in for the 
record.
    [The information follows:]

    The number of men and women the Services have been asked to recruit 
in fiscal year 2014 is 248,625. This is the enlisted number (non-prior 
service and prior service) and it includes both the Guard and Reserve.

    Senator Durbin. But if it is about 200,000, the MAVNI 
program, which allows some exceptions here, I believe has an 
annual cap of 1,500.
    So, it would seem to me that it is in the best interests of 
the United States and a strong military to expand that cap to 
make MAVNI a permanent program and to expand the program to 
include other skills other than medical skills and certain 
languages--STEM subjects, for example--so that we will be 
bringing into our military not only diversity through MAVNI, 
but filling some key spots.
    There will be some young people here fresh out of high 
school, maybe out of college, who want to enlist, who can bring 
skills that are needed for today's military. It would seem to 
me that the President would be open to this. I would like to 
talk to him some more about it, and I hope that you will 
consider expanding MAVNI so that it may cover more than 1,500.
    Ms. Wright. Sir, we agree with you. We believe that we 
could certainly look at expanding it. We believe that there may 
be some other opportunities other than the medical and the 
language, and now we just need to get to what those are.
    I know that the Chairman and the Joint Chiefs are very 
interested in this, and so this is one of the things that we 
are working with them to find out truly, how to expand it and 
the number we want to expand it to.
    So we agree that the population of DACA is really a robust 
population that would give our organization the diversity, that 
would give our organization some of the best and brightest in 
America, that we could capitalize on, that they would make us a 
better organization, and we would make them, as the military 
has done for me, a better person.
    Senator Durbin. Last question I will ask you, I only ask 
you for the record, the critics of allowing DACA-eligible 
DREAMers, many of them, may acknowledge diversity, they may 
even acknowledge skills, but they question something very 
basic. And that is the commitment of young people who are not 
yet citizens to this country, their patriotism.
    What has your experience been? What has our military 
experience been when it came to men and women who stepped up 
and said, ``We are prepared to fight in the uniform of the 
United States of America, for this great Nation.'' What has our 
Nation's experience been with these people?
    Ms. Wright. Are you asking me that for the record or would 
you like me to answer?
    Senator Durbin. I would like you to answer.
    Ms. Wright. I will tell you those individuals who are not 
yet citizens who join our great ranks, our fleet and our force, 
I do not question. I personally do not question their 
patriotism. The Department does not question their patriotism. 
They have lived, died, fought, bled, sweat for our country.
    Senator Durbin. Madam Secretary, thank you. I feel exactly 
the same way and on the next panel, we are going to get a 
chance to meet some people who tell that story.
    Thank you so much for coming out from Washington to Phoenix 
Military Academy.
    Ms. Wright. Thank you.
    Senator Durbin. If I could ask the next panel to step 
forward.
    The first witness on this panel is retired Colonel Kevin 
Kelley, Director of Military Instruction for Chicago Public 
Schools. Prior to his current position, he was the Senior Army 
Instructor at Roberto Clemente High School. Colonel Kelley 
served in numerous command and leadership positions in the 
Army, was public information officer for NATO headquarters, 
Director of Advertising and Public Affairs for the United 
States Army Recruiting Command. He is a graduate of the U.S. 
Military Academy at West Point.
    Colonel Kelley, thank you for joining us today. Your 
written testimony will be part of the record. I invite you to 
give us your spoken testimony at this moment.
STATEMENT OF COLONEL (RET.) KEVIN KELLEY, DIRECTOR OF 
            MILITARY INSTRUCTION, CHICAGO PUBLIC 
            SCHOOLS
    Colonel Kelley. Thank you very much, Mr. Chairman, for 
holding this hearing and inviting me to testify here today.
    I would like to take just one moment to acknowledge our 
other military academy that is also present in this room, that 
is our Marine math and science cadets who are here today.
    Senator Durbin. Thank you very much for being here.
    Colonel Kelley. Cadets, this is one of those teachable 
moments that you have, and so just to say, treasure this moment 
because this is a piece of history in the making and you are 
part of it.
    I am Kevin Kelley and I am honored to be here to provide my 
testimony and relate my experience in working with high school 
students who are DREAMers.
    I am a retired colonel in the United States Army and 
currently the Director of Military Instruction for Chicago 
Public Schools. In this role, I oversee the Junior Reserve 
Officer Training Corps programs in 45 public high schools in 
Chicago. Four military services are represented among those 
Junior ROTC programs; 36 of the programs are Army Junior ROTC, 
four Navy, three Marine Corps, and two are Air Force-sponsored. 
Six of these programs are in public school military academies 
like the one we are in today. We serve nearly 11,000 students 
enrolled in these Junior ROTC programs making Chicago the 
largest Junior ROTC presence of any school district in the 
country.
    I have worked with Junior ROTC in Chicago for 11 years. I 
taught Junior ROTC for 8\1/2\ years at Roberto Clemente High 
School and 2\1/2\ years ago, moved to this current position 
overseeing the Junior ROTC programs in the district. I am also 
a State certified teacher in Illinois.
    I think it is important at this point to note that the 
purpose of Junior ROTC is to instill in students the values of 
citizenship, service to the Nation, personal responsibility, 
and a sense of accomplishment.
    Junior ROTC is well-suited to this mission with its 
teaching corps of retired military instructors who model these 
values and teach them to our students through a robust 
curriculum, and numerous co-curricular activities that include 
leadership development camps, academic and drill competitions, 
and service learning projects that support our communities. Our 
cadets provided over 125,000 hours of service to the Chicago 
community over the past year. And right behind me, there is a 
blood drive going on, just as another example of our service to 
the community.
    Students enroll in Junior ROTC in Chicago public schools 
for many reasons. Some see the structure and opportunity for 
leadership development and are attracted to it. Some have 
aspirations to serve the Nation in one of the armed services 
and see this as preparation for that. And some take it as an 
alternative to physical education. Whatever the reason, the 
benefit they gain from the curriculum, and by participating in 
the co-curricular activities, support the mission of motivating 
them to be better citizens. And while it is not our purpose to 
recruit young people for military service, when there are young 
men and women who express a desire to serve, we are ready and 
willing to assist them to achieve that goal.
    Our most recent analysis shows that about 5 percent of our 
1,600 graduating seniors last year chose to serve in the 
military, either by enlisting directly into the active or 
reserve forces, by applying and receiving an appointment to one 
of our Nation's prestigious military academies, or by receiving 
a Senior ROTC Scholarship at the college they plan to attend.
    Every year we are confronted with the reality that a 
certain segment of our graduating seniors will be unable to 
fulfill their dreams of serving the Nation in this way. We know 
of several students, some who are present in this school today, 
who would be qualified based on their test scores, physical 
fitness, and extracurricular participation to be competitive 
for appointment to a service academy such as West Point, but 
are unable to apply because of their immigration status. They 
would meet the highest enlistment quality benchmarks that are 
set for our military recruiting force, but if they approach the 
recruiter, they cannot even apply.
    These are students who have lived in the United States all 
through their school years, many having arrived in this country 
as infants. They have accomplished great things in our schools, 
becoming leaders, scholars, and star athletes. But for many, 
when they graduate from high school, the roadblocks to their 
future pop up. We do not have the exact count on the number of 
undocumented students in our programs, but it is our estimate--
and I would say it is a conservative estimate--that it is about 
10 percent.
    When we deny them the opportunities they have earned on 
their own merits--academic achievement, leadership and service 
in their communities--we may tie them to bonds of poverty they 
would otherwise escape. We increase the chances that they 
become a segment of society that draws on our social resources 
that, had they been given the chance, they would be 
contributing to in their own right.
    Let me tell you about one of our stellar Junior ROTC 
graduates who wants to serve in the Marine Corps. Alejandro 
Morales, and you told his story on the senate floor last year, 
and he is present here today. Alejandro was our highest ranking 
cadet in the city of Chicago, earning the position of City 
Corps Commander. When he graduated in 2012 he dreamed of 
joining the Marine Corps. His status prevented him from 
fulfilling that dream. Today, Alejandro works a nightshift from 
10 p.m. until 2 a.m. to earn money to attend a Chicago City 
College to continue his education.
    A young man with a work ethic like this, and the drive to 
succeed would, without a doubt, be an outstanding Marine, but 
he cannot get past the front door of the recruiting station, 
and lives in a virtual no-man's-land because he does not have 
citizenship. And while he is disappointed, he is not deterred, 
and he continues to pursue his dream with the hope that one day 
the DREAM Act, and immigration reform, will be passed.

                           PREPARED STATEMENT

    Recent testimony by the Department of Defense stated that 
nearly 75 percent of our youth are not qualified--and you 
referred to this in your opening statement--not qualified 
largely due to medical conditions and weight. One way to expand 
the pool of highly qualified applicants with a propensity for 
service is to offer DREAMers the opportunity to serve.
    I believe that if DREAMers were authorized to enlist, the 
path for success for these students would open up, and they 
would become outstanding servicemen and servicewomen for our 
country. They would have the pathways to be all they want to 
be, and our Nation--their Nation--would be stronger and safer 
because of their service.
    Thank you.
    [The statement follows:]
           Prepared Statement of Colonel (Ret.) Kevin Kelley
    Thank you Mr. Chairman for holding this hearing and for inviting me 
to testify today.
    I am Kevin Kelley and I am honored to be here to provide my 
testimony and relate my experience in working with high school students 
who are DREAMers.
    I am a retired Colonel in the United States Army and am currently 
the Director of Military Instruction for Chicago Public Schools. In 
this role, I oversee the Junior Reserve Officer Training Corps programs 
in 45 public high schools in Chicago Public Schools. Four military 
services are represented among those Junior ROTC programs, with 36 of 
the programs Army Junior ROTC, four Navy, three Marine Corps and two 
Air Force sponsored. Six of these programs are in public school 
military academies. We serve nearly 11,000 students enrolled in these 
Junior ROTC programs, making Chicago the largest Junior ROTC presence 
in any school district in the country.
    I have worked with Junior ROTC in Chicago for 11 years. I taught 
Junior ROTC for 8\1/2\ years at Roberto Clemente High School and 2\1/2\ 
years ago moved to my current position overseeing all the Junior ROTC 
programs for the school district. I am also a State-certified teacher 
in Illinois.
    I think it is important at this point to note that the purpose of 
JROTC is to instill in students the values of citizenship, service to 
the Nation, personal responsibility and a sense of accomplishment. 
Junior ROTC is well-suited to this mission with its teaching corps of 
retired military instructors who model these values and teach them to 
our students through a robust curriculum and numerous co-curricular 
activities that include leadership development camps, academic and 
drill competitions, and service learning projects that support our 
communities. Our cadets provided over 125,000 hours of service to the 
Chicago community over the past year.
    Students enroll in Junior ROTC in Chicago Public Schools for many 
reasons: Some see the structure and opportunity for leadership 
development and are attracted to it; some have aspirations to serve the 
Nation in one of the armed services and see this as preparation for 
that; and some take it as an alternative to physical education. 
Whatever the reason, the benefit they gain from the curriculum and 
participating in co-curricular activities support the mission of 
motivating them to be better citizens.
    And while it is not our purpose to recruit young people for 
military service, when there are young men and women who express a 
desire to serve, we are ready and willing to assist them in achieving 
that goal. Our most recent analysis shows that about 5 percent of our 
1,600 graduating seniors last year chose to serve in the military, 
either by enlisting directly into the Active or Reserve forces, by 
applying and receiving an appointment to one of our Nation's 
prestigious military academies, or by receiving a Senior ROTC 
Scholarship at the college they plan to attend.
    Every year we are confronted with the reality that a certain 
segment of our graduating seniors will be unable to fulfill their 
dreams of serving the Nation in this way. We know of several students, 
some who are present in this school today, who would be qualified, 
based on their test scores, physical fitness, and extracurricular 
participation, to be competitive for appointment to a service academy 
such as West Point, but are unable to apply because of their 
immigration status. They would meet the highest enlistment quality 
benchmarks that are set for our military recruiting force, but if they 
approach the recruiter, they are told they cannot even apply.
    These are students who have lived in the United States all through 
their school years, many having arrived in this country as infants. 
They have accomplished great things in our schools, becoming leaders, 
scholars, and star athletes. But for many, when they graduate from high 
school, the road blocks to their future pop up. We do not have the 
exact count on the number of undocumented students in our programs, but 
our estimate is that it is about 10 percent.
    When we deny them the opportunities they have earned on their own 
merits--academic achievement, leadership and service in their 
community--we may tie them to bonds of poverty they would otherwise 
escape. We increase the chances that they become a segment of society 
that draws on our social resources that, had they been given the 
chance, they would be contributing to in their own right.
    Let me tell you about one of our stellar Junior ROTC graduates who 
wants to serve in the Marine Corps. Alejandro Morales was our highest 
ranking cadet in the city, earning the position of City Corps 
Commander. When he graduated in 2012 he dreamed of joining the Marine 
Corps. His status prevented him from fulfilling that dream. Today, 
Alejandro works a night shift from 10 p.m. to 2 a.m. to earn money to 
attend a Chicago City College to continue his education. A young man 
with a work ethic like this and the drive to succeed would without a 
doubt be an outstanding Marine. But he cannot get past the front door 
of the recruiting station and lives in a virtual no-man's land because 
he does not have citizenship. And while he is disappointed, he is not 
deterred and he continues to pursue his dream with the hope that one 
day the DREAM Act and immigration reform will be passed.
    Recent testimony by the Department of Defense stated that nearly 75 
percent of our Nation's youth are not qualified for military service 
largely due to medical conditions and weight. The witness further 
stated that only 14 percent of our youth express a propensity for 
military service. (DOD Testimony to House Armed Services Committee, 
Military Personnel Subcommittee, January 16, 2014). One way to expand 
the pool of highly qualified applicants with a propensity to service is 
to offer DREAMers the opportunity to serve.
    I believe that if Dreamers were authorized to enlist, the path for 
these students would open up and they would become outstanding 
servicemen and servicewomen for the country they love. They would have 
pathways to be all they want to be, and our Nation--their Nation--would 
be stronger and safer because of their service.

    Senator Durbin. Thank you very much, Colonel.
    Our next witness is Sergeant Oscar Vazquez, Calvary Scout 
with the 1st Squadron, 40th Cavalry Regiment, 4th Infantry 
Brigade Combat Team (Airborne), 25th Infantry Division. He is 
stationed in the joint base Elmendorf-Richardson in Alaska. He 
is a combat veteran of the war in Afghanistan. Sergeant Vazquez 
would certainly take the prize for coming the greatest distance 
to join us today, and I thank him for that. But I would also 
tell you this, if I were asked to hold a hearing anywhere in 
the United States to make my argument for allowing DREAMers to 
enlist and could bring only one witness, it would Sergeant 
Vazquez.
    He graduated from Arizona State University with a degree in 
Mechanical Engineering, was recognized as one of the top three 
outstanding graduates in his class. I thank you for attending 
today. I look forward to hearing your testimony, but equally 
important, I look forward to these young students hearing an 
amazing life story.
    Sergeant Vazquez.
STATEMENT OF SERGEANT OSCAR VAZQUEZ, U.S. ARMY, JOINT 
            BASE ELMENDORF-RICHARDSON
    Sergeant Vazquez. Chairman Durbin, thank you for the 
opportunity to testify before the subcommittee.
    My name is Sergeant Oscar Vazquez, and I currently serve as 
an Army paratrooper in the 4th Brigade Combat Team, 25th 
Infantry Division stationed in joint base Elmendorf-Richardson 
Alaska.
    Before I begin, I would like for the record to reflect that 
the testimony I am to give is my own. I can only speak for 
myself and I do not speak for the United States Army, the 
Department of Defense, or any other Federal agency. Nor, can I 
speak for others with experiences similar to my own.
    I was 12-years-old when my mother and I boarded a bus from 
our village in Mexico to the border. Although I did not make 
the choice to come to this country, this country quickly became 
my home.
    Soon after 9-11, I saw the ``Band of Brothers'' miniseries, 
I knew then I wanted to join the Army. At Carl Hayden High 
School, I joined Junior ROTC. I loved the order and discipline, 
and was eventually awarded the Junior ROTC Officer of the Year 
award. I thought this would be the beginning of a career in the 
military, but when I met with the recruiter, I was told I could 
not enlist because I was undocumented. I left the meeting not 
knowing what to do or what was next. Knowing you cannot do 
something because of a piece of paper, or lack thereof, it was 
devastating.
    I knew I had to figure something else to do with my life. 
Joining the robotics club opened new doors for me. Working with 
three of my fellow classmates, and under the supervision of two 
dedicated teachers, we entered the Marine Advanced Technology 
Education Center's Remotely Operated Vehicle Competition. Even 
though we were high school students, we decided to enter the 
college level competition because if we lost, at least it would 
be against a university and not another high school.
    I spent my senior year working with my team to design and 
build our underwater robot we named Stinky. That summer, we 
traveled to Santa Barbara, California for the competition. It 
was incredible to see other underwater robots and teams from 
MIT, and some of the best universities in the world. Beyond our 
wildest dreams, four undocumented kids from Arizona won the 
awards for Design Elegance, Technical Report, and the grand 
prize for Overall Winner of the competition.
    Winning the underwater robotics competition was proof that 
we, as DREAMers, had something to offer to the country we 
always considered our home. Although I could not contribute to 
my country by joining the military, I decided I could 
contribute by becoming an engineer. I fell in love with Arizona 
State University during a middle school fieldtrip, but 
attending ASU came with its own challenges.
    In 2006, the Arizona Legislature passed the law prohibiting 
undocumented students from receiving in-State financial aid. 
Even though Arizona had been my home for many years, I was not 
allowed to pay in-State tuition, and when this new law came 
into effect, my tuition tripled. Through private scholarships 
and working construction, I scraped money together to pay for 
college and support my family. Despite how difficult it was, I 
never gave up on the idea of getting a degree, and at 
graduation, it paid off.
    In 2009, I was one of the three students introduced as an 
outstanding graduate during graduation, sitting only a few feet 
away from President Obama. But afterwards, I did not know what 
the future held. I had a degree in mechanical engineering, but 
no one would hire me in this field without a legal status. I 
did not want to be stuck in a low end job and not be able to 
apply my degree to its full potential to contribute to my 
country and support my family.
    In the end, my wife and I decided that I should go back to 
Mexico, a country that I left as a child, and apply to reenter 
the United States legally. Even though my wife Karla, and 
daughter Samantha, are U.S. citizens, the law said that I was 
barred from coming back to the United States for 10 years. My 
wife and I knew it would not be easy, but we wanted to do this 
while my daughter was still young.
    It was frustrating to be away from the family and not be 
able to see my daughter grow up. Every few weeks, when my wife 
had a few days off, Karla would bring Samantha to make the 3 
hour drive to visit me. When they first started visiting, my 
daughter did not recognize me, and it was heartbreaking as a 
parent for your child not to know who you are.
    I applied for a waiver of the 10-year bar so I could come 
back home, but the Government denied the request. They said 
that we had not documented enough hardship for my wife and 
daughter due to my absence. I would have to wait another year 
for the Government to evaluate my case. But thanks to you, 
Senator Durbin, the Department of Homeland Security took 
another look at my case and granted my waiver. Three hundred 
sixty-five days after I left the United States, I was able to 
return as legal resident.
    Soon after I came back to the United States in August 2010, 
I decided to pursue my first dream and enlist in the United 
States military, in the Army. I started basic training in 
February 2011. I wanted to fight for the country that raised 
me. Saying I loved this country was not enough. I will let my 
actions speak for themselves.
    In May, shortly before I finished basic training, I became 
a U.S. citizen. A couple of months later, I was deployed to 
Afghanistan. Serving in the Army fulfilled my dream of going to 
airborne school and jumping out of planes like they did in 
``Band of Brothers''. I looked forward to going to Afghanistan 
because I wanted to go into combat and protect my country. 
Serving in the Army allowed me to contribute more fully to the 
country and make it safer. It has been a great honor to serve 
my country.
    Today, our son, Oskar Maximus, is 2-years-old. He was born 
the day after I returned from deployment R&R. Samantha is now 
5-years-old and loves kindergarten. Although we have grown to 
love Alaska, we look forward to coming back to Arizona this 
summer, where I will apply what I learned at ASU and the Army 
to continue my career in mechanical engineering.

                           PREPARED STATEMENT

    Over the years, I have met many DREAMers who also want to 
join the military and serve the country that they love. I 
sincerely hope that one day they will be able to follow in my 
footsteps and enlist. I believe my story is just one example of 
what DREAMers can do if they are given the chance to come out 
of the shadows and give back to our country.
    Thank you again for the opportunity to testify. I look 
forward to answering any of your questions.
    [The statement follows:]
              Prepared Statement of Sergeant Oscar Vazquez
    Chairman Durbin, thank you for the opportunity to testify before 
the subcommittee. My name is Sergeant Oscar Vazquez. I was 12 years old 
when my mother and I boarded a bus from our village in Mexico to the 
border. Although I did not make the choice to come to America, this 
country quickly became my home.
    Ever since I saw the ``Band of Brothers'' miniseries, I knew I 
wanted to join the Army. At Carl Hayden High School, I joined JROTC. I 
loved the order and discipline and was eventually awarded the JROTC 
Officer of the Year. I thought this would be the beginning of a career 
in the military. But when I met with a recruiter, I was told that I 
couldn't enlist because I was undocumented. I left that meeting not 
knowing what to do or what was next. Knowing you can't do something 
because of a piece of paper or lack thereof is devastating.
    I knew I had to figure out what else I could do with my life. 
Joining the robotics club opened new doors for me. Working with three 
of my fellow classmates and under the supervision of two dedicated 
teachers, we entered the Marine Advanced Technology Education Center's 
Remotely Operated Vehicle Competition. Even though we were high school 
students, we decided to enter the college level competition because if 
we lost, at least it would be against a university and not another high 
school.
    I spent my senior year working with my team to design and build our 
underwater robot, Stinky. That summer, we traveled to Santa Barbara, 
California for the competition. It was incredible to see other 
underwater robots and teams from MIT and some of the best universities 
in the world. Beyond our wildest dreams, four undocumented kids from 
Arizona won the awards for Design Elegance, Technical Report, and the 
grand prize for Overall Winner of the competition.
    Winning the underwater robotics competition was proof that we as 
Dreamers had something to offer the country we always considered to be 
our home. Although I could not contribute to my country by joining the 
military, I decided I could contribute by becoming an engineer. I fell 
in love with Arizona State University during a middle school field 
trip, but attending ASU came with its own challenges. In 2006, the 
Arizona Legislature passed a law prohibiting undocumented students from 
receiving in-State financial aid. Even though Arizona had been my home 
for many years, I wasn't allowed to pay in-State tuition. When this new 
law went into effect, my tuition tripled. Through private scholarships 
and working construction, I scraped the money together to pay for 
college and support my family. Despite how difficult it was, I never 
gave up on the idea of getting a degree, and at graduation it paid off.
    In 2009, I was one of three students introduced as an outstanding 
graduate during graduation, sitting only feet away from President 
Obama. But afterwards, I didn't know what the future held. I had a 
degree in mechanical engineering, but no one would hire me in this 
field without legal status. I didn't want to be stuck in a low-end job 
and not be able to apply my degree to its full potential to contribute 
to my country and support my family.
    In the end, my wife and I decided that I should go back to Mexico--
a country I left as a child--and apply to re-enter the United States 
legally. Even though my wife, Karla, and daughter, Samantha, are U.S. 
citizens, the law said that I was barred from coming back to the United 
States for 10 years. My wife and I knew it wouldn't be easy, but we 
wanted to do this while my daughter was still young.
    It was frustrating to be away from my family and not be able to see 
my daughter grow up. Every few weeks, when my wife had a few days off, 
Karla would bring Samantha and make the 3-hour drive to visit me. When 
they first started visiting, my daughter didn't recognize me after not 
seeing me for so long. It is heartbreaking as a parent for your child 
to not know who you are.
    I applied for a waiver of the 10-year bar so I could come back 
home, but the government denied the request. They said that we hadn't 
documented enough hardship for my wife and daughter due to my absence. 
I would have to wait another year for the government to evaluate my 
appeal. But thanks to Senator Durbin, the Department of Homeland 
Security took another look at my case and granted my waiver. Three-
hundred and sixty one days after I left the United States, I was able 
to return as legal resident.
    Soon after I came back to the United States in August 2010, I 
decided to pursue my first dream and enlist in the United States Army. 
I started basic training in February 2011. I wanted to fight for the 
country that raised me, I wanted to prove my allegiance by my actions. 
In May, shortly before I finished one station unit training, I became a 
U.S. citizen. A couple of months later, I was deployed to Afghanistan 
with the 4th Brigade Combat Team of the 25th Infantry Division. Serving 
in the Army fulfilled my dream of going to airborne school and jumping 
out of planes like they did in ``Band of Brothers.''
    It has been a great honor to serve my country. I looked forward to 
going to Afghanistan because I wanted to go into combat and protect the 
United States. Serving in the Army allowed me to contribute more fully 
to this country and make it safer.
    Today, I am stationed at the Joint Base Elmendorf-Richardson in 
Alaska. I am a cavalry scout with the 1st Squadron, 40th Cavalry 
Regiment, 4th Infantry Brigade Combat Team (Airborne), 25th Infantry 
Division. Our 2-year-old son, Oskar Maximus, was born the day after I 
returned home for R&R from Afghanistan. Samantha is now 5 years old and 
loves kindergarten. Although we have grown to love Alaska, we are 
looking forward to coming back home to Arizona this summer, where I 
will apply what I learned at ASU and the Army to continue my career in 
mechanical engineering.
    Over the years, I have met many Dreamers who also want to join the 
military and serve the country that they love. I sincerely hope that 
one day they will be able to follow in my footsteps and enlist. I 
believe my story is just one example of what Dreamers can do if they 
are given the chance to come out of the shadows and give back to our 
country.
    Thank you again for the opportunity to testify. I look forward to 
answering your questions.

    Senator Durbin. Thank you.
    Senator Durbin. I told you it was an amazing story. They 
ought to make a movie out of it. In fact, they are and we look 
forward to seeing it.
    Gregory Chen is the Director of Advocacy for the American 
Immigration Lawyers Association. Previously, he was Director 
for Legislative Affairs from Lutheran Immigration Refugee 
Service and Director for Policy and Advocacy for the U.S. 
Committee for Refugees and Immigrants. A graduate of Harvard 
and New York University Law School, Mr. Chen clerked for the 
Honorable Stephen Reinhardt of the 9th Circuit U.S. Court of 
Appeals.
    Thank you for joining us, and please proceed.
STATEMENT OF MR. GREGORY CHEN, DIRECTOR OF ADVOCACY, 
            AMERICAN IMMIGRATION LAWYERS ASSOCIATION
    Mr. Chen. Thank you, Chairman Durbin.
    As Director of Advocacy of AILA, I am honored to testify 
here at Phoenix Military Academy, and honestly, inspired to be 
able to be part of this important hearing. And I also want to 
thank you, Senator Durbin, for your tireless efforts to win 
immigration reform, not just with these incredible efforts of 
the senate bill last year, but your continuing efforts to get 
the DREAM Act passed. AILA supports those and we will continue 
to fight alongside you.
    AILA runs the Military Assistance Program which has 
assisted over 700 service members and their families. Through 
the MAP program, we have come to understand the incredible 
contributions and the sacrifices that foreign service members 
have made to our Nation, as well as the challenges they face as 
immigrants serving in the military.
    To begin with, it is well-recognized that the U.S. armed 
forces need to recruit more immigrants. According to a 2011 
Center for Naval Analyses research, immigrants add valuable 
diversity, immigrants often speak other languages than English, 
and immigrants also perform extremely well often having 
significantly lower attrition rates than other recruits.
    The U.S. military has taken important steps to recruit 
immigrants. In addition, AILA has two changes as 
recommendations that could be implemented immediately.
    First, the Department of Defense can interpret enlistment 
law to allow recipients of DACA to enlist just as you have 
already suggested. Current law restricts enlistment to citizens 
and lawful permitted residents, by and large. But the law, as 
already has been mentioned, also gives the military broad 
authority to enlist other immigrants if it is, quote, ``vital 
to the national interest,'' a term used in the statute.
    The military's current use of this authority excludes DACA 
recipients, but I am not aware of any statutory definition, or 
legislative history, that restricts the meaning of ``vital to 
the nation interest'' in the way the military is currently 
interpreting it. So DOD, the Department of Defense, can 
immediately broaden its interpretation to encompass DACA 
recipients.
    DACA beneficiaries are U.S. educated, they have good moral 
character, they reside in the United States for 5 years or 
more, and they can meet other enlistment requirements such as 
passing the DHS background check, and the NCIC criminal check. 
As of March 2014, more than half a million young people have 
been granted DACA; that is a huge pool of potential applicants. 
Increasing the military enlistment pool to include those 
granted DACA is vital to our Nation's ability to maintain a 
highly qualified, diverse, and inclusive all-volunteer force.
    Second, the Department of Defense should clarify that an 
otherwise qualified applicant can enlist even if he or she 
lives with someone who is unauthorized, or has a dependent who 
is unauthorized, or is married to someone who is unauthorized.
    The Army, Marines, and Navy currently bar such individuals 
from enlistment, however. Their position is apparently based on 
a view that a person has committed the crime of harboring an 
alien by merely living with someone who is undocumented. AILA 
strongly disagrees with that view.
    No U.S. circuit court of appeals, these are the Federal 
circuit courts, has found that living with an undocumented 
person with knowledge of that person's status, is sufficient to 
constitute harboring. And nearly all of the courts have ruled 
that more evidence of harboring is needed than just 
cohabitation. So it makes little sense that the U.S. military 
is taking a view contrary to the overwhelming weight of Federal 
court jurisprudence. The armed forces have the legal authority 
to allow these people to enlist and it should do so.
    Now excluding from enlistment those individuals who live 
with an unauthorized person also runs counter to the current 
practices of both the Department of Defense and DHS.
    First of all, AILA's MAP program has assisted many service 
members who have undocumented spouses. Typically, the 
Department of Defense does not discharge those service members 
for harboring that alien. But it actually helps them and their 
spouse in working through that situation.
    With respect to the Department of Homeland Security, 
secondly, DHS supports military personnel who have undocumented 
family by granting them parole and has set up a new policy, as 
of just this past November, regarding parole for those families 
and the undocumented family member.
    AILA's MAP has helped several individuals in such cases 
such as a Navy hospital man named David, whose wife, Mary, was 
undocumented. Mary was brought to the United States when she 
was 6 months old. They met in high school and got married after 
he enlisted. After training, David was deployed to Afghanistan.
    Now, he wrote in his letter supporting his wife's 
application for parole, quote, ``The truth is that the 
separation from my beloved wife has already been one of the 
most difficult things I have ever done. I cannot imagine a 
level of hardship and anxiety I would face if she would have to 
go back to Mexico.'' Now eventually, Mary was granted parole, 
and that gave them both much greater peace of mind.
    So it makes no sense that both Department of Defense, 
Department of Homeland Security, as well as the Federal courts 
all have indicated that the Department of Defense has the legal 
authority to do this and the policy to support it. So people 
who have somebody who is undocumented, that is their spouse or 
is a dependent, can certainly be enlisted.
    Finally, in addition to steps that the Department of 
Defense can take, AILA recommends that congress take real 
action. First, it should enact the DREAM Act as soon as 
possible. DREAM Act could be done alone or as part of the 
Comprehensive Immigration Reform bill that the senate passed 
just last year.
    In addition to offering legalization for a large population 
of young, unauthorized people, the DREAM Act would enable the 
U.S. military to draw on a larger, highly qualified, and 
diverse pool of candidates.
    AILA also supports other bills like the H.R. 435 bill in 
the House sponsored by Congressman Coffman, which would broaden 
the pool of those eligible to enlist.

                           PREPARED STATEMENT

    In closing, historically, immigrants have made enormous 
contributions to our Nation's military, fighting in every war 
since the Revolution. Many have given their lives. Many have 
become citizens and some even were undocumented as service 
members. Immigrants are patriotic and want to serve, including 
many of those who are here with us today.
    Now is the time for our executive and legislative branches 
to do everything they can to create more opportunity for 
immigrants to serve, and in so doing, meet the needs of our 
Nation better.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Gregory Chen
    Mr. Chairman and distinguished members of the committee: I am Greg 
Chen, Director of Advocacy of the American Immigration Lawyers 
Association (AILA). I appreciate the opportunity to appear before you 
today concerning the issue of the military enlistment of immigrants and 
the important role immigrants have played in the U.S. armed forces.
    AILA is the national bar association of immigration lawyers and has 
more than 13,000 attorney and law professor members. For more than 60 
years, the association has worked to promote justice, to advocate for 
fair and reasonable immigration law and policy, and to advance the 
quality of immigration and nationality law and practice.
    In 2008, AILA established the Military Assistance Program (MAP) to 
provide immigration legal services to active duty members of the U.S. 
armed forces, as well as to reservists, veterans and their immediate 
families. AILA MAP operates with the support of the Judge Advocate's 
General Legal Assistance Office (JAG) and assists JAG attorneys with 
complex immigration law questions. Since its founding, AILA MAP has 
assisted more than 700 servicemembers and their families, and has about 
375 volunteer immigration lawyers who handle cases on a pro bono basis.
    AILA MAP's goal is to support the morale, welfare, and readiness of 
U.S. service men and service women, who in many instances are deployed 
while leaving a family member behind, often in a tenuous or uncertain 
immigration status. Through MAP, AILA attorneys have come to understand 
the incredible contributions and sacrifices foreign-born servicemembers 
have made to our Nation's military as well as the challenges they face 
as immigrants serving in the military.
              immigrant contributions to the u.s. military
    For decades, indeed for centuries and in every war fought by the 
United States, immigrants have made critical contributions to our 
nation's military. Immigrants have been eligible to enlist since the 
Revolutionary War and have served with great distinction. In June 2010, 
approximately 16,500 noncitizens were serving in the military, making 
up 1.4 percent of the enlisted force.\1\ The total percentage of 
immigrants--including both noncitizen and citizens--serving in the 
military is higher than that figure since many immigrant servicemembers 
have naturalized. In recent years even more foreign-born servicemembers 
became citizens and did so at a faster rate due to changes in 
naturalization rules to expedite the process.\2\
---------------------------------------------------------------------------
    \1\ ``Population Representation in the Military Services: Fiscal 
Year 2010 Summary Report,'' p. 39, Department of Defense, http://
prhome.defense.gov/portals/52/Documents/POPREP/poprep2010/summary/
PopRep10Summ.pdf.
    \2\ Molly F. McIntosh and Seema Sayala, with David Gregory. Non-
Citizens in the Enlisted U.S. Military. CNA Research Memorandum 
D0025768.A2/Final, November 2011, https://www.cna.org/sites/default/
files/research/Non%20Citizens%20in%20the%20Enlisted%20US%20Military%20
D0025768%20A2.pdf.
---------------------------------------------------------------------------
    It has long been an American tradition that service in the armed 
forces can lead to U.S. citizenship. Immigrants who have served in the 
U.S. military and by so doing earned their citizenship include Alfred 
Rascon, an undocumented immigrant from Mexico who won the Medal of 
Honor during the Vietnam War; he later became a U.S. citizen and 
eventually the director of the Selective Service System. Immigrants 
also have been promoted to the highest ranks of the U.S. military; most 
notable is General John Shalikashvili, former chairman of the Joint 
Chiefs of Staff, who came to the United States from Poland shortly 
after World War II.
    Even undocumented immigrants have contributed to the Armed Forces. 
For example, an AILA MAP attorney, Neil O'Donnell, represented Luis 
Lopez, who served in the Army despite being undocumented and was later 
assisted by his commanding officer to obtain citizenship. This is a 
summary of the case:

      Luis Lopez was 8 years old in 1990 when his family came to the 
        United States from Mexico on tourist visas. The family 
        overstayed the visas. Luis visited an Army recruitment office 
        after finishing high school, but was asked for a green card or 
        a birth certificate. Luis gave the recruiter a fake ``birth 
        abstract'' that stated he was born in Los Angeles County. He 
        served in the Army and was deployed to Iraq twice and then to 
        Afghanistan. During his service, he was awarded more than a 
        dozen accolades. He was given commendations for his service in 
        Afghanistan as a section chief for an airborne field artillery 
        battalion's radar system.
      In 2010, he informed his supervisors that he was an unauthorized 
        immigrant and took steps to apply for citizenship. His 
        application was based on the Immigration and Nationality Act of 
        1952 which says that foreign nationals who have ``served 
        honorably'' during wartime may be naturalized ``whether or not 
        [they have been] lawfully admitted to the United States for 
        permanent residence.'' Luis's commanding officer provided a 
        recommendation letter to U.S. Citizenship and Immigration 
        Services (USCIS) that Luis be awarded citizenship. Luis was 
        granted citizenship and naturalized in 2011.

    Immigrant servicemembers are loyal to the United States and heed 
the call to fight for the principles of freedom and democracy just as 
native-born soldiers do. For noncitizens who can meet requirements to 
enlist and serve honorably, serving in the U.S. military offers a 
unique path to citizenship. Through service immigrants prove their 
allegiance to their new homeland and integrate more quickly into 
American society. Their service carries on a proud and unquestioned 
tradition in our Nation of immigrants.
      recruiting more immigrants will help the u.s. meet its needs
    The need for a broad, highly qualified and diverse pool of talent 
to join the military has been widely recognized. In Army magazine's 
April 2014 volume, Major General Allen Batchelet, the commanding 
general of the U.S. Army Recruiting Command wrote: ``[Y]outh interest 
in military service is decreasing, and fewer than one in four young 
people meet enlistment qualifications.'' Today only 40 percent of young 
people have ever spoken with a military recruiter, down from 60 percent 
10 years ago. Major General Batchelet called for more aggressive 
recruiting policies from a broader talent pool and for changing the law 
to permit the enlistment of young undocumented immigrants.
    Previous reports reached similar conclusions. In April 2005, CNA 
published a comprehensive report on immigrants in the military. The 
report noted that immigrants add valuable diversity to the armed forces 
and perform extremely well, often having significantly lower attrition 
rates than other recruits. The report also pointed out that ``much of 
the growth in the recruitment-eligible population will come from 
immigration.'' The February 2006 Quadrennial Defense Review highlighted 
the key role that immigrants play in the Department of Defense (DOD) 
and called for increased recruitment in all branches of the military of 
immigrants who are proficient in languages other than English--
particularly Arabic, Farsi, and Chinese.
    In 2010, DOD published its annual report, ``Population 
Representation in the Military Services,'' and examined the noncitizen 
population and eligibility-to-serve criteria, such as being a lawful 
permanent resident, having a high school diploma, and having English-
language proficiency. The report estimated that 1.2 million noncitizens 
in the prime recruiting ages of 18 to 29 would have met the eligibility 
criteria in 2010.\3\ Moreover, an estimated 85 percent of the eligible 
noncitizen population spoke a foreign language at home (39 percent 
Spanish, 5 percent Chinese, 10 percent another Asian or Pacific Island 
language, 15 percent languages from India, and 4 percent Middle Eastern 
languages).\4\
---------------------------------------------------------------------------
    \3\ ``Population Representation in the Military Services: fiscal 
year 2010 Summary Report,'' p. 41, Department of Defense; http://
prhome.defense.gov/portals/52/Documents/POPREP/poprep2010/summary/
PopRep10Summ.pdf.
    \4\ Ibid.
---------------------------------------------------------------------------
                immigration and military enlistment law
    Recognizing the important role immigrants play in the military, 
Congress has passed laws that enable the foreign-born to enlist and 
that facilitate their naturalization. Since 1952, the Immigration and 
Nationality Act has given broad authority to the president to expedite 
citizenship for immigrant U.S. military servicemembers. In the past two 
decades, the government has used this authority to help servicemembers 
naturalize by reducing wait times, waiving residence and physical 
presence requirements, and enabling naturalization to take place on 
completion of boot camp.
    In 2003, the Army launched a program to recruit and train linguists 
and interpreters to address the severe shortage of U.S. military 
linguists who are fluent in dialects common to Iraq and Afghanistan. 
Immigrants have been crucial to the program's success: Two-thirds of 
program recruits were legal immigrants; while one-third were U.S. 
citizens. In 2006, Congress created a special visa program for 
immigrant interpreters who provided assistance as civilians to the 
armed forces in Iraq and Afghanistan.
    In 2006, Congress substantially changed the military enlistment 
statutes, repealing the separate statutes that had previously governed 
enlistment in each of the services and replacing them with a single 
statute. The 2006 law establishes a bar against unauthorized 
individuals enlisting in the military and requires lawful permanent 
resident status for enlistment. The law allows for an exception for 
those whose enlistment is deemed ``vital to the national interest.'' 
This provision is discussed further below.
    improving government policy and practice on immigrant enlistment
    Current military practices could be significantly improved to 
better meet the needs of the U.S. Government to recruit and maintain a 
diverse and highly qualified professional military. AILA recommends two 
changes that can be implemented immediately:
  --Broaden the interpretation of ``vital to the national interest'' 
        under 10 USC Sec. 504.
  --Clarify the enlistment eligibility of individuals who live with or 
        have unauthorized spouses and dependents.
Interpretation of ``Vital to the National Interest'' Under 10 USC 
        Sec. 504
    The 2006 uniform enlistment practices statute effectively restricts 
immigrant enlistment to lawful permanent residents. But the statute 
also includes a broad exception where a service secretary has 
determined that a person's enlistment is ``vital to the national 
interest.'' The 2006 law gave the secretaries of the separate services 
authority to waive the requirement that a person seeking to enlist have 
U.S. citizenship or lawful permanent resident status if they determine 
``that such enlistment is vital to the national interest.'' Using this 
statutory authority, in 2008, Defense Secretary Gates authorized a new 
pilot program titled ``Military Accessions Vital to the National 
Interest'' (MAVNI), under which up to 1,000 legal noncitizens with 
critical skills would be allowed to join the U.S. armed forces each 
year. The annual quota has since been increased though it is still 
limited to 1,500.
    Under the MAVNI program, the Army, Navy, and Air Force began 
recruiting certain noncitizens who were not lawful permanent residents 
but were nonetheless lawfully present in the United States. So far, 
however, MAVNI has been restricted to individuals who are licensed 
healthcare professionals in certain medical specialties or fluent in 
one of 35 strategic languages--not including Spanish. MAVNI also 
restricts enlistment to persons who hold specific non-immigrant visa 
statuses, temporary protected status, or asylee or refugee status. 
Persons granted deferred action are not eligible for MAVNI. 
Unfortunately, this interpretation precludes an enormous pool of 
foreign-born individuals from enlisting.
    DOD can immediately broaden the interpretation of ``vital to the 
national interest'' under 10 USC Sec. 504(b)(2), which states that the 
secretary of defense ``may authorize the enlistment of a person not 
described in paragraph (1) if the Secretary determines that such 
enlistment is vital to the national interest.'' AILA is not aware of 
any statutory definition or legislative history that would restrict the 
meaning of ``vital to the national interest'' to the two MAVNI 
categories (individuals with certain language skills and healthcare 
professionals) that DOD has announced to date, or to the specific 
immigration statuses that DOD has selected for the MAVNI program. 
Accordingly, it is at the discretion of the service secretaries to use 
the ``vital to the national interest'' language to meet any and all 
recruitment needs.
    Specifically, DOD can use the ``vital to the national interest'' 
clause to enlist those who have received grants of deferred action 
under the Deferred Action for Childhood Arrivals (DACA) initiative, 
without forcing those with DACA to fit within the narrow constraints of 
the MAVNI program. As of March 2014, more than half a million people 
had been granted DACA. Among them are these exemplary individuals who 
are well qualified to serve their country in the Armed Forces:

      Juan Rios was brought to the United States from Mexico when he 
        was 10. Juan was a leader in Air Force JROTC. He was group 
        commander and armed drill team captain, and rose to the rank of 
        Cadet Lieutenant Colonel. Juan dreamed of attending the Air 
        Force Academy, but he was unable to do so because he is 
        undocumented. Instead, Juan enrolled in Arizona State 
        University. In 2010, he graduated with a degree in aeronautical 
        engineering.
      Gaby Pacheco was brought to the United States from Ecuador when 
        she was 7 years old. She was the highest-ranking JROTC student 
        and received the highest score on the military aptitude test at 
        her high school in Miami, Florida. The Air Force tried to 
        recruit Gaby, but she was unable to enlist because of her 
        undocumented status. Gaby earned three degrees from Miami Dade 
        College, where she was elected student government president and 
        statewide student body president.
      Jhon Magdaleno was brought to the United States from Venezuela 
        when he was 9 years old. During high school, he was the 4th 
        highest ranking officer and Commander of the Air Honor Society 
        in his JROTC unit. Jhon is currently an honor student majoring 
        in Chemical and Biomolecular Engineering at the Georgia 
        Institute of Technology, one of the top engineering schools in 
        the country. He works in a biomedical engineering lab at the 
        university researching glaucoma. He has also recently secured 
        an internship with Eastman Chemical Company.

    The enlistment of people under DACA is clearly vital to the 
national interest because DACA beneficiaries are U.S.-educated persons 
who have good moral character, who have resided in the United States 
for at least 5 years, and who can meet other military enlistment 
standards, including passing a DHS background check and a National 
Crime Information Center check. Increasing the military recruitment 
pool to include those granted DACA is vital to our Nation's ability to 
maintain a highly qualified, diverse and inclusive all volunteer force.
Enlistment Eligibility of Individuals With Unauthorized Spouses and 
        Dependents
    DOD should clarify that an individual is not barred from enlistment 
if he or she lives with, or is married to, an unauthorized person or 
has unauthorized dependents. Last year Kathleen Welker of the Army 
Recruiting Command confirmed that Army policy bars these individuals 
from enlistment.\5\ The Marine Corps and Navy have specific written 
regulations barring the enlistment of such persons. The bar against 
these individuals is allegedly based on the view that a person has 
committed the crime of harboring under the Immigration and Nationality 
Act, 8 USC Sec. 1324, if he or she merely co-habitats with someone who 
is not authorized to be in the United States.
---------------------------------------------------------------------------
    \5\ Transcript of NPR interview by Jude Joffe-Block with Kathleen 
Welker broadcast on December 16, 2013. http://hereandnow.wbur.org/2013/
12/16/military-undocumented-family. See also ``New Immigration Hope For 
Military Dependents, But Enlistment Hurdles Remain,'' Fronteras, 
November 20, 2013, http://m.fronterasdesk.org/content/9256/new-
immigration-hope-military-
dependents-enlistment-hurdles-remain.
---------------------------------------------------------------------------
    AILA strongly disagrees with this view. The harboring statute 
states in part that it is a punishable offense to:

    knowing[ly] or in reckless disregard of the fact that an alien has 
        come to, entered, or remains in the United States in violation 
        of law, conceal[], harbor[], or shield[] from detection, or 
        attempt[] to conceal, harbor, or shield from detection, such 
        alien in any place, including any building or any means of 
        transportation. [emphasis added]

    No U.S. circuit court of appeals that has considered the issue has 
found that co-habitating with someone of unauthorized status, with 
knowledge of his or her unauthorized status, is sufficient to 
constitute harboring. The U.S. Court of Appeals for the Third Circuit 
has defined ``harboring'' as conduct ``tending to substantially 
facilitate an alien's remaining in the United States illegally and to 
prevent government authorities from detecting the alien's unlawful 
presence.'' Lozano v. City of Hazelton, 620 F.3d 170, 223 (3d Cir. 
2010) (emphasis in original). The Second Circuit and Eleventh Circuit 
have applied similar definitions. See United States v. Kim, 193 F.3d 
567, 574 (2d Cir. 1999) and United States v. Chang Qin Zheng, 306 F.3d 
1080, 1086 (11th Cir. 2002). Although not all the circuit courts of 
appeals have held that a showing of concealment is necessary to meet 
the definition of harboring, I am not aware of any Federal court in 
which someone has been convicted of harboring merely because the 
individual lived with an unauthorized person with knowledge of that 
person's status.
    It makes little sense that the various branches of the military 
would take a view contrary to the weight of Federal court 
jurisprudence. Indeed, the current Army, Navy, and Marine Corps policy 
is a recent development that had not previously been applied by any of 
these service branches. The secretary of each of the services has the 
authority to allow otherwise qualified applicants who live with or are 
married to unauthorized persons to enlist.
    Excluding from enlistment those individuals who live with an 
unauthorized person also runs counter to the policies and practices of 
both DOD and DHS. DOD does not discharge Americans from military 
service when their spouses and children fall out of status. AILA MAP 
has assisted many spouses of servicemen or servicewomen who come to the 
United States on a visitor visa, or another kind of visa, and then fall 
out of status by overstaying the visa. In such cases, the armed forces 
do not discharge the service member out of concern that he or she is 
committing the criminal act of harboring an unauthorized person.
    In November 2013, USCIS issued a memorandum on the granting of 
parole requests made on behalf of the spouses, children, and parents of 
active-duty military personnel, reserve members, and veterans, when 
those spouses, children and parents are already physically present in 
the United States without inspection or admission. The parole-in-place 
policy is intended to protect military personnel who have undocumented 
spouses, children or parents by easing the stress and anxiety placed on 
military service members and veterans when their family members lack 
immigration status. The memorandum notes that ``[m]ilitary preparedness 
can potentially be adversely affected if active members . . . who can 
be quickly called into active duty, worry about the immigration status 
of their spouses, parents and children.'' The USCIS parole-in-place 
policy makes it clear that these military personnel are not viewed as 
harboring an unauthorized person. Moreover, the policy is designed to 
support them and their families and allow the unauthorized persons to 
obtain valid immigration status.
    AILA MAP has helped several individuals in these circumstances. For 
example, the following case was handled by attorney Grant Godfrey:

      David is a U.S. citizen Navy hospitalman and the son of a Navy 
        servicewoman. David's wife Mary, who was undocumented, was 
        brought to the United States when she was 6 months old. David 
        and Mary met in high school and got married a year later after 
        he enlisted. Mary lived with David's mother as David was 
        stationed around the country for training and then was deployed 
        to Afghanistan. Because of the difficulties of getting 
        documents from David while he was in a warzone, the filing of 
        Mary's application for parole-in-place was delayed until David 
        returned. Mary was then granted parole-in-place; 6 months 
        later, she received her green card. Mary has no criminal 
        history other than a ticket for driving without headlights and 
        for driving without a license for which she paid the fine in 
        full.
      In his letter in support of his wife's application for parole-in-
        place, David wrote: ``In the event that my wife was forced to 
        return to Mexico and were subject to the 10-year bar, then I 
        would make every effort to move to Mexico so I could be with 
        her. Since I signed a 5 year enlistment contract with the Navy, 
        before I could do so I would either have to wait that out or I 
        would have to try to get discharged. I also would be giving up 
        my military career to move to a different country with an 
        unfamiliar culture that speaks a language I don't understand. I 
        imagine that my job prospects would be very bad, and I have a 
        great fear that my status as an American, not to mention a 
        military veteran, would make me a target for violence. The 
        truth is that the separation from my beloved wife has already 
        been one of the most difficult things I have ever done. If her 
        application were denied, then what has been a very trying 
        situation would only be compounded, and I cannot imagine the 
        level of hardship and anxiety I would face if she would have to 
        face the uncertainty of going back to Mexico, not to mention 
        the uncertainty inherent in my own efforts to reunite with her 
        in Mexico.''
           reforming immigration and military enlistment law
    AILA recommends that Congress reform both immigration law and 
military enlistment law to expand the opportunities for immigrants to 
enlist. AILA supports passage of the Development, Relief, and Education 
for Alien Minors (DREAM) Act, or a comparable proposal enacted 
separately or as part of a broader immigration bill such as the one 
included in the Senate-passed bill, S. 744. The DREAM Act would allow 
young people who have grown up in this country, have graduated from 
high school, have been acculturated as Americans, and have no serious 
criminal record to go to college or to serve in the military and 
thereby legalize their immigration status. In addition to offering 
legalization for a large population of young unauthorized people, a 
goal that AILA supports for its own sake, the passage of the DREAM Act 
would enable the U.S. military to draw on a larger, highly qualified 
and diverse pool of candidates that will be essential to meeting the 
military's and America's needs.
    AILA also supports H.R. 435, the Military Enlistment Opportunity 
Act, a bipartisan bill sponsored by Congressman Mike Coffman (R-CO). 
The Military Enlistment Opportunity Act would broaden the pool of those 
eligible to enlist in the U.S. armed forces beyond citizens and lawful 
permanent residents, and those who are eligible under the current MAVNI 
program. The bill would allow persons who have resided continuously in 
a lawful status in the United States for at least 2 years, as well DACA 
recipients, to enlist. The measure further provides a path to lawful 
permanent status for both categories of enlistees by amending the 
current process.
    Thank you again for the opportunity to address this important 
topic.

    Senator Durbin. Thank you, Mr. Chen.
    Our next witness is Cadet Command Sergeant Major Mario 
Rodriguez, a senior at Phoenix Military Academy. He was 
selected as Cadet Command Sergeant Major through a very 
comprehensive, competitive selection system. CSM Rodriguez has 
a 4.52 GPA. His goal in life includes attending the U.S. Naval 
Academy.
    Cadet Command Sergeant Major Rodriguez, the floor is yours.
STATEMENT OF SERGEANT MARIO RODRIGUEZ, CADET COMMAND 
            SERGEANT MAJOR, PHOENIX MILITARY ACADEMY
    Cadet Sergeant Rodriguez. I am Cadet Command Sergeant Major 
Mario Rodriguez. I am a cadet in Chicago's Phoenix Military 
Academy High School and, sir, I am an American. I do not 
possess the official documents required by the Department of 
Homeland Security but, sir, I am truly an American.
    I am an American because I love my country. I am an 
American because I have respected and followed all of my 
country's laws. I am an American because I have dedicated 
myself to doing all that I can to make my community and my 
county a better place. I am an American because I am ready and 
willing to support and defend our Nation's Constitution against 
all those who threaten it. I am an American because citizenship 
rests more in one's devotion and love for their country, than a 
mere accident of birth.
    My becoming of an American began when I was 8-years-old. 
Upon arriving in the United States, my parents turned their 
backs on everything they had secured for their family in 
Mexico, and decided to raise my brother and I with the mere 
notion of earning a higher paycheck so that they could provide 
us with a better life.
    Like many young children, I had notions and visions of 
becoming an astronaut or a cowboy, but I knew, always knew, 
that I wanted to become someone who positively influenced and 
impacted the lives of many others. At that point in my life, 
however, I was afraid to be different and stand out from among 
my peers. Later, I learned to utilize my weaknesses as guides 
for my academic and social transformation.
    Living in the United States, I had the misfortune of seeing 
my parents struggle due to their lack of identification. This 
has cost them jobs and raises at work, and prevented them from 
fully participating as citizens.
    Recently, this lack of paperwork, or forms of 
identification, prevented me from expanding my own education. I 
had the grades, the GPA, the extracurricular activities to 
apply to summer programs, but upon applying for financial aid, 
the organizations asked questions I had no answer to. I could 
not prove my status, provide official identification, or 
provide the necessary paperwork for aid.
    With the help of my mentors from a college preparatory 
program called Minds Matter, my counselors, my librarian, I 
sought to create my official identity. The few months after 
turning eighteen were busy. I obtained an ID from the Mexican 
Consulate, a bank account, Deferred Action status, my work 
permit, and a Social Security number. These accomplishments 
signify not only my determination to excel in a country where 
the law becomes a challenge for immigrants from becoming active 
participants in its Government, they also demonstrate my 
ability to accomplish so much in a very short time, period of 
time.
    It is not the end, however. Next in line are my driver's 
license, State I.D., my passport and, beyond that, the pursuit 
of the American status that will grant me an identity other 
than that of an alien immigrant. I have learned to utilize the 
available gateways to solve my problems legally and, though it 
has been a rough path, I am glad that I am preparing myself for 
what is to come. With this, my goal has been to join the armed 
forces to serve my country in the Navy service and safety, to 
maintain our Nation's men, prepared and protected.
    Through it, I want to earn degrees in business 
administration, and project management, and operations 
management, and as well as in human resources management. As a 
result, I will be fulfilling my aspirations of leading others 
into impacting the lives of many more in the process of 
building stronger leaders in those key areas.
    Unfortunately for me, my dream cannot be accomplished due 
to the lack of legal documents that would otherwise enable me 
to expand my potential of self-improvement as a leader in our 
Nation's armed forces and in the civilian world. This 
impediment, nonetheless, cannot be overcome without the 
consideration of Congress to pass a comprehensive immigration 
reform.
    Even then, in the words of Dr. Martin Luther King, Jr., the 
arc of the moral universe is long, but it bends towards 
justice. It bends towards justice, but here is the thing; it 
does not bend on its own. It bends because each of us in our 
own ways put our hands on that arc and we bend it in the 
direction of justice.

                           PREPARED STATEMENT

    Senator Durbin, I ask that you and the Congress act in all 
deliberate speed to start bending that moral arc toward the 
direction of justice, so that I, and my fellow Americans 
sharing this common predicament, can live our dreams and start 
bending that moral arc for others.
    I ask that you grant us these opportunities, these dreams, 
to show our true potential and patriotism to this country, our 
Nation.
    Thank you.
    [The statement follows:]
   Prepared Statement of Cadet Command Sergeant Major Mario Rodriguez
    Thank you Chairman Durbin for inviting me to testify today.
    I am Cadet Command Sergeant Major Mario Rodriguez. I'm a Cadet in 
Chicago's Phoenix Military Academy High School and I am an American. I 
do not possess the official documents required by the Department of 
Homeland Security, but I am an American. I'm an American because I love 
my country. I'm an American because I have respected and followed all 
of my country's laws. I'm an American because I've dedicated myself to 
doing all I can to make my community and county better. I'm an American 
because I'm ready and willing to support and defend our Nation's 
Constitution against all those who threaten it. I'm an American because 
citizenship rests more in one's devotion and love for their country 
than mere accident of birth.
    My becoming an American began when I was 8 years old. Upon arriving 
in the United States, my parents turned their backs on everything they 
had secured for their family in Mexico and decided to raise my brother 
and me with the mere notion of earning a higher paycheck so that they 
could provide us with a better life.
    Like many young children, I had visions of becoming an astronaut or 
a cowboy, but I always knew that I wanted to become someone who 
positively influenced and impacted the lives of others. At that point 
of my life, however, I was afraid to be different and stand out from my 
peers. Later, I learned to utilize my weaknesses as guides for my 
academic and social transformation.
    Living in the United States, I had the misfortune of seeing my 
parents struggle due to their lack of identification. This has cost 
them jobs and raises at work, and prevented them from fully 
participating as citizens. Recently, this lack of paperwork or forms of 
identification prevented me from expanding my own education: I had the 
grades, the GPA, and the extracurricular activities to apply to summer 
programs, but upon applying for financial aid, the organizations asked 
questions I could not answer to. I could not prove my status, provide 
official identification, or produce the necessary paperwork for aid.
    With the help of my mentors from a college preparatory program 
called Minds Matter, my counselors, and librarian, I sought to create 
my official identity. The few months after turning 18 were busy: I 
obtained an ID from the Mexican Consulate, a bank account, Deferred 
Action status, my work permit, and a Social Security number. These 
accomplishments signify not only my determination to excel in a country 
where the law becomes a challenge for immigrants from becoming active 
participants in its government and economy. They also demonstrate my 
ability to accomplish so much in a short period of time.
    It is not the end, however. Next in line are my driver's license, 
State I.D., my passport, and, beyond that, the pursuit of the American 
status that will grant me an identity other than that of an ``alien'' 
immigrant. I've learned to utilize the available gateways to solve my 
problems legally and, though it has been a rough path, I'm glad that 
I'm preparing myself for what is to come.
    My goal has been to join the Armed Forces. I want to serve my 
country in the Navy's Service and Safety community to help keep our 
Nation's sailors prepared and protected. I hope to earn degrees in 
Business Administration in Project Management and Operations 
Management, Culinary Arts, and Human Resource Management. As a result, 
I will be fulfilling my aspirations of leading others into impacting 
the lives of many more.
    Unfortunately, for me, my dream cannot be accomplished due to the 
lack of legal documents that would otherwise enable me to expand my 
potential for self-improvement as a leader in our Nation's Armed Forces 
and in the civilian world. This impediment cannot be overcome without 
the consideration of Congress to pass a comprehensive immigration 
reform or with the Defense Department authorizing the enlistment of 
Dreamers.
    In the words of Dr. Martin Luther King Jr., the arc of the moral 
universe is long but it bends towards justice. It bends towards 
justice, but here is the thing: it does not bend on its own. It bends 
because each of us in our own ways put our hand on that arc and we bend 
it in the direction of justice. Senator Durbin, I ask that you and the 
Congress act in ``all deliberate speed'' to start bending that moral 
arc toward the direction of justice, so that I and my fellow Americans 
sharing this common predicament can live our dreams and start bending 
that moral arc for others.
    I ask that you grant us these opportunities--these dreams--to show 
our true potential and patriotism to this country, our Nation.

    Senator Durbin. Thank you very much, Cadet Sergeant Major 
Rodriguez.
    Cadet Captain Jessica Calderon is Company Commander at 
Phoenix Military Academy. Cadet Calderon is a junior and has a 
4.0 GPA. She is a leader on Phoenix's city champion Raider 
Team, a Junior ROTC Military Adventure Squad. She is also an 
Illinois Institute of Technology Boeing Scholar. Her dream is 
to attend West Point.
    Thank you for joining us, and please proceed.
STATEMENT OF CAPTAIN JESSICA CALDERON, CADET CAPTAIN, 
            PHOENIX MILITARY ACADEMY, CHICAGO, ILLINOIS
    Cadet Captain Calderon. My name is Jessica Calderon. I am a 
Cadet Captain in the firebird battalion at Phoenix Military 
Academy. I am a junior with a 4.0 GPA, and I am ranked No. 7 in 
my class.
    I came here not by my free will, but by the choice of my 
mother, who wanted nothing more than to provide the best life 
for her two daughters and pursue the American dream. It was 
quite a treacherous journey for my mom, who had to be separated 
from her two beloved daughters in order to have a safe journey 
coming to America.
    I came here by plane, so I did not have to go through the 
dangerous process most immigrants had to endure to come to 
America. I finally arrived here when I was 3-years-old. While 
still maintaining my Mexican heritage, I became an American at 
heart. I was raised in America, and really consider myself to 
be a citizen even though some numbers and papers do not say so.
    I do not let my status determine what I want to accomplish 
in life, but I never fail to realize that my opportunities are 
limited. I hope that in the future, if I have the privilege to 
become a citizen that I can pursue what I have been dreaming of 
ever since I stepped foot into high school.
    Before I even start mentioning what I want to accomplish in 
life, I want to say that I am grateful for every opportunity 
that America has given me, and I take advantage of everything 
that comes my way. America is built upon the efforts of people 
that work to make the country better, and I abide by the laws 
that America sets forth. I believe the characteristics I hold, 
the things I do at school, and the grades I have earned, make 
me a good candidate to be a citizen.
    The only thing that holds me back from accomplishing my 
goals is my status as an undocumented immigrant in this 
country. I still dream, and if I am granted an opportunity to 
get my citizenship, I will never stop working as hard as I have 
since the day I got here.
    I hope to attend the United States Military Academy at West 
Point, which has been my dream since I first stepped foot in 
Phoenix. This Academy has truly molded me into the person I 
never thought I would become, but I am glad that I did.
    I dream of becoming the officer for the United States Army 
through West Point if I am granted admittance into the academy. 
If this plan fails, I plan to attend college regardless, and go 
through the ROTC process so I can become an Army officer. When 
I enter college, I plan to major in creative writing, 
biomedical engineering, or international relations, and 
hopefully to have a career in either one of those fields. If 
this fails I will attend community college, and then transfer 
into a 4-year university. No matter what happens, I want to 
pursue a higher education when I get out of high school.

                           PREPARED STATEMENT

    Senator, I hope you can persuade the House to pass 
immigration reform, not only for myself, but for the rest of 
the immigrants who cause no trouble to America, and want to 
serve this country. If the House does not pass comprehensive 
immigration reform, I hope that they can pass the DREAM Act so 
that, at least, young immigrants can pursue a higher education 
and serve this country.
    I also hope that the Defense Department will authorize the 
enlistment of DACA recipients so that DREAMers can serve in the 
armed forces. This really needs to happen because it is the 
only thing holding us back from our goals and accomplishing 
them. We can really contribute to this Nation. I consider the 
rest of the immigrants and myself to be an asset to this 
country.
    Thank you.
    [The statement follows:]
          Prepared Statement of Cadet Captain Jessica Calderon
    Thank you Chairman Durbin for inviting me to testify today.
    My name is Jessica Calderon; I am a Cadet Captain in the firebird 
battalion at Phoenix Military Academy. I am a junior with a 4.0 GPA, 
and am ranked seventh in my class. I came here not by my free will but 
by the choice of my mother, who wanted nothing other than to provide 
the best life for her two daughters and pursue the American dream. It 
was quite a treacherous journey for my mom, who had to be separated 
from her two beloved daughters in order to have a safe journey coming 
to America. I came here by plane, so I didn't have to go through the 
dangerous process most immigrants had to endure to come to America. I 
finally arrived here when I was 3 years old. While still maintaining my 
Mexican heritage, I became an American at heart. I was raised in 
America, and really consider myself to be a citizen even though some 
papers and numbers don't say so.
    I don't let my status determine what I want to accomplish in life, 
but I never fail to realize that my opportunities are limited. I hope 
that in the future, if I have the luxury to become a citizen, I can 
pursue what I have been dreaming of ever since I stepped foot in high 
school. Before I even start mentioning what I want to accomplish in 
life, I want to say that I am grateful for every opportunity that 
America has given me, and I take advantage of everything that comes my 
way. America is built upon the efforts of people that work to make the 
country better, and I abide by the laws that America sets forth. I 
believe that the characteristics I hold, the things I do at school, and 
the grades I have earned, make me a good candidate to be a citizen. The 
only thing that holds me back from accomplishing my goals is my status 
as an undocumented immigrant in this country. I still dream, and if I'm 
granted an opportunity to get my citizenship, I won't ever stop working 
as hard as I have since the day I got here.
    I hope to attend The United States Military Academy at West Point, 
which has been my dream since I first stepped foot in Phoenix. This 
school really molded me into the person I never thought I would become, 
but I'm glad that I did. I dream of becoming an officer for the United 
States Army through West Point if I'm granted admittance into the 
academy. If this plan fails, I plan to attend college regardless and go 
through the ROTC process so I can become an Army officer. When I enter 
college, I plan to major in Creative Writing, Biomedical Engineering, 
or International Relations and hopefully to have a career in one of 
those fields. If this fails I will attend community college, and then 
transfer into a 4-year university. No matter what happens, I want to 
pursue a higher education when I graduate from high school.
    Senator, I hope you can persuade the House to pass immigration 
reform, not only for myself but for the rest of the immigrants who 
cause no trouble to America and want to serve this country. If the 
House doesn't pass comprehensive immigration reform, I hope that they 
can pass the DREAM Act so that at least young immigrants can pursue 
higher education and serve this country. I also hope that the Defense 
Department will authorize the enlistment of DACA recipients so that 
Dreamers can serve in the Armed Forces. This really needs to happen 
because it is the only thing keeping us from our goals and 
accomplishing them; we can really contribute to this Nation. I consider 
the rest of the immigrants and myself to be an asset to this country.

    Senator Durbin. Thank you very much, Cadet Captain 
Calderon.
    Before asking a few questions to this panel, I would like 
to acknowledge several other people who are here and tell you 
briefly their stories.
    Cadet Captain Tania Brito, would you please stand?
    Cadet Captain Brito is Company Commander at Phoenix 
Military Academy. Her parents brought her to Chicago from 
Mexico when she was 3-years-old.
    Cadet Captain Brito recently won the Best in Mathematics 
Award at the Illinois State Science Fair. She holds a GPA of 
4.4 and dreams of enlisting in the Illinois Army National 
Guard. We would be lucky to have you.
    Thank you very much.
    Cadet Captain Abigail Nava, would you please stand?
    Cadet Captain Nava is a Plans and Operations Officer S3 at 
Phoenix Military Academy, senior with a 3.8 GPA, was brought to 
the U.S. from Mexico at the age of 10, and dreams of attending 
West Point.
    Cadet Captain Samantha Ortega, would you please stand?
    She is Phoenix Military Academy's Battalion Logistics 
Officer S4. She is a senior with a 4.1 GPA, brought to Chicago 
from Mexico at the age of 1. Her dream is to become a Marine.
    Alejandro Morales, please stand.
    He was referred to earlier, brought to the United States 
from Mexico at the age of 7 months. He graduated from the 
Marine Math and Science Academy, where he rose to become the 
City Corps Staff Commander, the highest ranking cadet of the 
11,000 Junior ROTC cadets at Chicago public schools. His dream 
is to become a Marine.
    In a letter to me he wrote, and I quote, ``I want to serve 
and fight to protect my country. I am an American. I know 
nothing but the United States.''
    Last year while the Senate was debating our Comprehensive 
Immigration Reform, I took Mr. Morales' story to the floor of 
the senate so that my colleagues and everyone who followed that 
important, historic debate could hear about him. I wanted 
everyone to know who the people are, who are looking for this 
opportunity to serve.
    And I thank you for being here today.
    Sergeant Vazquez, it was not that many years ago you might 
have been sitting in one of these chairs in Arizona as a member 
of the Junior ROTC. And I'm listening to your amazing life 
journey that brought you to Phoenix Military Academy for this 
hearing today.
    What would you say to the many people that we have 
introduced, and many others who are sitting here, the same 
position you were that many years ago?
    Sergeant Vazquez. Senator, I would tell them to continue to 
prepare themselves mentally, physically, and academically for 
when that opportunity comes that they are ready and competitive 
for any of the changes that might come in the future. And that 
would be my personal message for them, sir.
    Senator Durbin. When you were in the active military and 
deployed, was there ever a time when you felt that you were not 
treated as an equal to the men and women you were serving with?
    Sergeant Vazquez. Sir, personally, when I was deployed, I 
never had any issues. Every member of my platoon and I were 
just fighting for one common goal, and I never felt I was 
treated differently, sir.
    Senator Durbin. Let me ask you about your family situation. 
When you went through this experience of going to Mexico, you 
left behind your new wife and your new baby, and you talked 
about how difficult it was to introduce yourself as a father to 
your daughter, and now, you have a son.
    It sounds to me like your wife should also get a special 
reward or a special recognition for standing by her husband 
throughout this journey as well.
    Sergeant Vazquez. I definitely believe so, sir. I cannot 
thank her enough. My beautiful wife has always been next to me 
and she has given me the support that I have needed to come 
this far. I definitely owe her a lot and it really shows why we 
are still together almost 10 years later, sir.
    Senator Durbin. I ask Mario Rodriguez and Jessica Calderon, 
can you both explain why you decided that service in our 
military was an important part of your future?
    Cadet Sergeant Rodriguez. I will go first.
    Well, first of all, we have come to a military academy to 
prepare ourselves for 4 years. And when the notion of coming to 
the U.S. is obviously to come and work, provide a better life 
for our families, but as we go into the service, we think about 
the holistic point of view of not just our family, not just our 
community, not just our State. We look at the entire Nation. We 
have prepared ourselves, again, not only to serve our families 
and represent them, but again, our country.
    We, like you mentioned before, the United States is pretty 
much all we know even though we were born in Mexico or other 
countries of Latin America, our countries would be a different 
place for us to go.
    Senator Durbin. Jessica.
    Cadet Captain Calderon. Yes, and like he said, when I 
decided a service would be best is just that what I have 
learned through JROTC, the values that the Army sets forth.
    Originally, I did not even want to come to Phoenix. I did 
not even consider it a choice or any JROTC schools. My cousin 
came here, so I decided, ``Why not?'' And ever since I stepped 
foot into Phoenix, it changed me, and it did not change me for 
the bad, it changed me for the better.
    And I think as this is all I know, America is all I know. I 
acknowledge my Mexican heritage, but I pledge allegiance, like 
you mention to this Nation every day and I would not feel 
comfortable defending any other Nation but America. And I feel 
like I am like a good candidate and sometimes it gets back to 
come to reality that I cannot do it, but I will never stop 
working as hard as I can until one day that I get to serve this 
Nation.
    Senator Durbin. Thank you.
    Colonel Kelley, many people may not realize what sacrifices 
are made by these cadets to apply, and to come to school, and 
to live under the standards, and codes, and discipline, and 
rules that are part of our military academies.
    Can you give us an insight into the type of young man or 
woman who makes this decision to come to places like Phoenix 
Military?
    Colonel Kelley. Mr. Chairman, it takes a special person to 
make that decision in the first place, that they are going to 
take a step already beyond themselves to one of service. They 
may not be taking a path toward enlistment right away, but they 
know that they are going to be coming to an academy of 
structure and discipline, and they want to be a part of that.
    They also know that they are going to have to--for many of 
them and you saw by the show of hands--do the sacrifice of the 
multiple bus trips or train rides, sometimes commuting, getting 
up at 4:00 or 5:00 in the morning to be here on time to be 
here. So there are sacrifices that they make.
    They also have opportunity here and those opportunities are 
in leadership development and growth, and learning the values 
that Cadet Calderon was alluding to: values of service and 
values of citizenship. And so, as they grow in those, I think 
they make ideal candidates, then, to become better citizens in 
our country.
    Senator Durbin. The last question I have is for Mr. Chen, 
and it is a lawyer question, but that is your capacity here 
today as an immigration lawyer.
    There have been a lot of conversations about what might 
happen, what the Department of Defense might do. We have this 
group of about 500,000 who have gone through the application 
process for DACA. They have paid the fee. They have gone 
through the background check. They have met all of the 
standards in terms of their background and their education, and 
now they are here in deferred status. They cannot be deported. 
That is about to go through renewal.
    The question is whether or not you believe that the 
Administration could have the legal authority to say, ``Those 
who go through the DACA process would be considered eligible to 
be part of our military, that their enlistment could be vital 
to our national interest.''
    Do you think as the President initially decided that 
potential DREAMers could be given this opportunity for deferred 
action in DACA, could the Administration make a similar 
decision that those DACA-eligible should be allowed to enlist?
    Mr. Chen. Senator, I think the simple answer to that 
question would be yes, from the analysis the AILA has done 
legally.
    And to give a little bit of an explanation for it; the 
vital to the national interest language that is in the statute, 
there is not any specific statutory definition for it. And 
there is no legislative history, as I mentioned before, 
confining the Department of Defense to a specific 
interpretation. So essentially, the Department has broad 
authority and discretion to interpret that language.
    And what constitutes vital to the national interest in this 
context? Essentially it is, as we have heard already from 
testimony, not only on this panel but before, the military has 
a great need at this time to be able to recruit the best 
possible candidates, of which so many are here in the room 
today. But the pool for that is not always as strong as it 
could be, and there is always the goal of getting stronger 
recruitment pool candidates.
    As we discussed already here at this hearing, the DACA 
recipient pool is the perfect pool for that purpose of all the 
different characteristics: diversity, language, having already 
gone through quite a bit of the screening.
    So, yes, in simple terms, the Department of Defense would 
have the authority to make that designation on a categorical 
basis and say that those people who are DACA recipients as a 
category would meet the vital to the national interest 
designation.
    Senator Durbin. Thank you. I am going to conclude this 
hearing by observing a couple of things.
    What did we learn today? What did we learn from the two 
congressmen who came? What did we learn from the Secretary of 
Defense who testified? What did we learn from this panel? And 
what did we learn from the protestor who was at this meeting?
    We learned something about America. We learned, first, that 
we could have an open and public hearing. That we can sit and 
speak to one another in a civilized way about an issue that is 
so critical to so many who are gathered here today.
    The ultimate decision that is made on this issue can change 
so many lives of people in this room. And we are part of a 
Government where people have a chance to come forward and to 
state their views.
    I thought the testimony here was amazing. I thought the 
witnesses who came forward were incredible, right here, in 
Chicago. Sergeant Vazquez, who came all the way from Alaska to 
tell an amazing story which we should never, ever forget.
    But let me say a word about the protestor who was here 
today too. He was exercising his rights as an American citizen 
to stand up and disagree or to call me out. That is part of 
this country. He was not arrested, and taken away, and put in 
jail. That is not what we do in America. We allow people to 
state their points of view.
    Now, I will return tomorrow to Washington where the debate 
on this issue continues and many people disagree with my 
position. But I believe, as the Congressman Gutieerrez said 
earlier, a majority agrees. They agree that if you are willing 
to signup in our military and risk your life for America, you 
should be given the opportunity. It will make you a better 
person. It will make us a better country, a stronger country.
    So as we think about the military and what they are 
fighting for, it is not just to win a battle. It is to protect 
the values of who we are as a Democratic Nation. This hearing 
is part of that American conversation. It may only be a small 
footnote, but it is part of that American conversation that our 
military, thank goodness, throughout our history has stood up 
to defend.

                          SUBCOMMITTEE RECESS

    I want to thank the Phoenix Military Academy, thank all of 
you who have come as part of this panel, and tell you that as 
this American conversation continues, our testimony today will 
be an important part of it.
    This meeting of the subcommittee stands adjourned.
    [Whereupon, at 11:03 a.m., Monday, May 19, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]
</pre></body></html>
